                                      AUDIT REPORT ON


                             THE HAWAII SMALL BUSINESS

                               DEVELOPMENT CENTER


                                         HILO, HAWAII


                            AUDIT REPORT NO. 8-7-F-004-005


                                     DECEMBER 24, 1997





This report may contain proprietary information subject to the provisions of 18 USC 1905 and must
not be released to the public or another agency without permission of the Office of Inspector General.
                     U.S. SMALL BUSINESS ADMINISTRATION

                         OFFICE OF INSPECTOR GENERAL

                              Washington, D.C. 20416



                                                                    AUDIT REPORT
                                                             Issue Date: December 24,
                                                             1997
                                                             Number: 8-7-F-004-005
TO:           Andrew K. Poepoe, District Director
              Honolulu District Office

FROM:         Peter L. McClintock
              Assistant Inspector General for Auditing

SUBJECT:      Audit Report - Audit of the Hawaii Small Business Development Center


        Attached is a copy of the audit report on the Hawaii Small Business
Development Center (HSBDC). The report contains four findings with eight
recommendations directed to your office. We found that the HSBDC (1) did not focus
resources to provide counseling assistance to the small business community, (2) could
enhance its program delivery and offset UH-Hilo program funding reductions by
soliciting increased funding, (3) had some financial reporting inaccuracies and
timeliness problems, and (4) had minor unallowable expenses because indirect cost
rates were improperly applied and the calculation of in-kind rents was incorrect.

       The findings included in this report are the conclusions of the Office of
Inspector General's Auditing Division based upon the auditors' testing of the HSBDC
operations. The findings and recommendations are subject to review and
implementation of corrective actions by your office following existing Agency
procedures for audit follow-up and resolution.

        Please provide us your management decisions for the recommendations within
80 days. Record your management decision on the attached SBA Form 1824,
Recommendation Action Sheet, and show either your proposed corrective actions and
target dates for completion or an explanation of your disagreement with our
recommendations.

       Should you or your staff have any questions or wish to discuss the issues
contained in the report, please contact Garry Duncan, Director of Field Operations, at
(202) 205-7732.
Attachment
                              AUDIT OF
            THE HAWAII SMALL BUSINESS DEVELOPMENT CENTER


                                          TABLE OF CONTENTS

                                                                                                             Page

SUMMARY ..................................................................................................... i


INTRODUCTION

          A. Background .................................................................................... 1

          B. Audit Objectives and Scope............................................................ 1

          C. Follow-up on Prior Audits ............................................................. 2


RESULTS OF AUDIT

Findings and Recommendations

       1. 	 Counseling services could be increased by reallocating

             staff resources ................................................................................. 3

       2. 	 Program funding from private and public sources

             should be sought ........................................................................... 11

       3. Financial and performance reporting needs improvement............... 14

       4. Indirect costs and in-kind contributions needs correction ................ 16


APPENDICES

       A. Honolulu District Office Response
       B. Hawaii Small Business Development Center Response
       C. Audit Report Distribution
                                         SUMMARY


       The objectives of the audit were to determine if (1) resources were effectively
used to provide counseling assistance to the small business community, (2)
operations were in conformance with the Cooperative Agreement, and (3)
expenditures were allowable. Generally, the Hawaii Small Business Development
Center (HSBDC) activities conformed to the Cooperative Agreement and
expenditures were allowable. Operations could be improved, however, by increasing
counseling services and fund raising activities; preparing accurate, timely financial
reports; and properly computing indirect and in-kind costs. The auditors found:

       •   	Counseling services, while considered the major service, averaged only
            15.6 percent of the total staff hours available because a disproportionate
            amount of staffing resources were devoted to non-counseling services,
            such as secretarial and administrative duties. Counseling services could
            be increased by reallocating staffing resources.
       •   	Funding stability could be improved by applying for funds available from
            private and local government entities. Increased funding would allow
            HSBDC to use its resources more effectively to provide counseling
            assistance to the small business community.
       •   	The reporting and approval requirements in the Cooperative Agreement
            were not always followed. Financial and performance reports were not
            prepared or were inaccurate and submitted late.
       •   	Indirect costs were overstated by $30,415 because incorrect rates were
            used and in-kind rents were not properly prorated. Conversely, the
            HSBDC did not claim allowable indirect costs of $34,837 for matching
            funds.

      We recommend that the District Director, Honolulu District Office, require
the HSBDC to take the following actions:

       •   	Submit a plan to increase counseling hours and reduce administrative
            time.
       •   	Increase fund raising from private sector and local government entities.
       •   	Ensure that accounting problems are corrected and timely reports are
            submitted to SBA.
       •   	Ensure that SF269 reports show how program income was received and
            used to further program objectives.
       •   	Prepare and submit semi-annual and annual performance reports in
            accordance with the Cooperative Agreement.
       •   	Use correct negotiated indirect cost rates to allocate expenditures.



                                           i
       •   	Prorate in-kind rent costs.
       •   	Compute allowable indirect costs for matching funds regardless of the
            amount of Federal funds received.

        The District Director, Honolulu District Office, advised that the HSBDC State
Director was directed to (i) analyze and develop a plan to maximize client service
delivery to the small business community based on economic conditions and
projected trends statewide, (ii) aggressively seek out appropriate fund raising and
partnership activity, (iii) work closely to resolve all reporting compliance issues, and
(iv) incorporate the cost rate recommended by the University of Hawaii study group.

       The HSBDC State Director disagreed with the recommendation and several
statements and conclusions in finding 1. The Auditee Response and OIG Evaluation
section of the report (page 7) discusses these matters. The Director generally agreed
with the other three findings and recommendations.

       The findings included in this report are the conclusions of the Office of
Inspector General (OIG) Auditing Division based on testing of the auditee’s
operations. The findings and recommendations are subject to review, management
decision, and corrective action by your Office in accordance with existing Agency
procedures for follow-up and resolution.




                                           ii
                                     INTRODUCTION


A.     BACKGROUND


       The Small Business Development Center (SBDC) Program is a partnership between
SBA and host organizations to provide small businesses quality assistance in promoting
growth, expansion, innovation, productivity, and management improvement. These
objectives are accomplished through counseling, training, and specialized support.

        SBA funds the SBDC through cooperative agreements that link resources of the
Federal, state, and local governments with those of colleges, universities, and the private
sector. The SBDC network includes a lead center and various sub-centers. In order to qualify
for assistance, matching funds must be provided equal to the total amount of the SBA grant.
At least 50 percent of this match must be in the form of cash.

      The SBDC program is governed by Title 13, Code of Federal Regulations (CFR), Parts
130 and 143; SBA Standard Operating Procedure (SOP) 60 16; an individual cooperative
agreement; the annual program announcement; and Office of Management and Budget
(OMB) Circulars A-21, A-87, and A-110.

        The Hawaii Small Business Development Center (HSBDC) network was established in
January 1990 to operate as a department of the University of Hawaii at Hilo (UH-Hilo). The
state office (lead center) and its State Director are located on the UH-Hilo campus. Services
are delivered through five sub-centers located in Hilo, Hawaii; Kihei, Maui; Lihue, Kauai;
Leeward, Oahu; and Honolulu, Oahu. A Business Research Library, co-located with the
Kihei sub-center, provides specialized research services. Five of the HSBDC's 15 employees
are counselors, four of whom also serve as sub-center directors.

        The 1995 budget was $905,061, including $433,455 in SBA funding. The HSBDC
was also responsible for overseeing a Department of Defense $5.4 million grant that provided
agricultural research projects for the depressed sugar industry in Hawaii. The grant funded
140 percent of a counselor position, two secretarial positions, and 30 percent of an
administrative assistant position.. Accounting support was provided by another University
entity, the Research Corporation of the University of Hawaii.

B.     AUDIT OBJECTIVES AND SCOPE

       The objectives of the audit were to determine whether (i) resources were effectively
used to provide counseling assistance to the small business community, (ii) operations were in
conformance with the Cooperative Agreement, and (iii) expenditures were allowable.

      Operations of the HSBDC state office/lead center, each sub-center, and the Business
Research Library were evaluated by flowcharting processes, examining internal controls,

                                              3

analyzing management and staffing, assessing reporting requirements, comparing program
goals and accomplishments, and quantifying fundraising efforts. To assist in evaluating
operational effectiveness, we sent questionnaires to clients and interviewed small business
community leaders familiar with the HSBDC operations. The audit covered operations from
January 1, 1995, to December 31, 1995, and certain 1996 financial, counseling, and program
operations. Fieldwork was conducted from January 9 through July 15, 1997, at the lead
center and each sub-center. The audit was performed in accordance with Government
Auditing Standards.

C. FOLLOW-UP ON PRIOR AUDITS

           There were no prior audits of this Small Business Development Center.

                                  RESULTS OF AUDIT

       While HSBDC’s counseling assistance to the small business community could be
enhanced, financial and reporting activities generally conformed with the cooperative
agreement, except for the accuracy and timelessness of required SBA reporting. Expenditures
were generally allowable except that indirect cost rates were improperly applied and indirect
costs and in-kind rents were incorrectly calculated.

FINDING 1 Counseling Services could be Increased by Reallocating Staff
     Resources

       While counseling is expected to be the major service provided for small businesses, it
averaged only 15.6 percent of staff hours available for counseling in fiscal years 1995 and
1996. This occurred because a disproportionate amount of staffing resources were directed
toward non-counseling functions, such as secretarial and administrative duties, and advocacy.
As a result, HSBDC did not fully achieve its program objective of providing counseling to the
small business community.

Program delivery to the small business community

        The HSBDC considers counseling the principal effort of its core program. SOP 60 16
states that SBDCs shall emphasize providing in-depth, high-quality assistance to small
business owners or prospective small business owners. Counseling involves furnishing one­
to-one assistance in complex areas that require specialized expertise, such as management,
marketing, finance, accounting, capital formation, and human resource management.

Use of staffing resources

       Despite its own standards, the HSBDC dedicated over 80 percent of total staffing
resources to non-counseling functions. Our analysis, which excluded the staffing positions

                                             4

funded by a Department of Defense/Department of Agriculture grant, showed that HSBDC’s
direct counseling hours totaled only 14.8 percent and 16.5 percent of the total available hours
in 1995 and 1996, respectively. Furthermore, a September 1997 programmatic review
conducted by the Program Operations and Liaison staff of the Office of the Associate
Administrator, Small Business Development Centers, showed that the HSBDC ranked 52nd
out of 57 SBDCs in counseling performed.




          The following table shows the percent of direct counseling hours to total hours.

          Percent of Direct Counseling Hours Compared to Total Hours Available


                          Counseling             Non-Counseling Hours
                            Hours
      a         b        c       d                e             f           g           h           j
   Year        Total   Direc   Training,    Administratio   Research    Secretarial     Total   Percentage
               Staff     t     Advocacy,         n          Assistant                 Hours*     of Direct
                               Administr­      Hours                                     (c     Counseling
                                 ation                                                through      (c/h)
                                                                                         g)
   1995         15.3   4,092     5,491          5,424        3,616        9,040        27,663     14.8%
   1996         15.4   4,590     5,188          5,424        3,616        9,040        27,858     16.5%
   Avg.        15.35   4,341     5,340          5,424        3,616        9,040        27,761     15.6%

* Total hours based on 1,808 hours per year per employee

        The table also shows that counselors were spending more hours on training, advocacy,
and administration than on direct counseling (an average of 5,340 hours versus 4,341). The
State Director stated that HSBDC exceeded its goals for cases worked and that start-up
businesses were counseled through formal training sessions. We noted the number of cases
serviced met established goals set by the HSBDC. The time dedicated to training, advocacy,
and administration could not be determined because the number of hours spent performing
these functions were not recorded separately. Although training is part of an SBDC’s
function, the SBDC Program Office does not consider training a substitute for counseling.
Counseling cannot be effectively provided in a training environment because the training is
not directed to a client’s specific needs nor is it the one-on-one assistance that occurs in a
counseling session.


                                                      5

Actions available to increase funds for counseling

       Increased funding for counselors is needed because 34 percent of the total HSBDC
cash match for calendar years 1995 and 1996 was contractually encumbered to meet new
requirements of the Business Research Library (BRL). These funds, therefore, could not be
used for other purposes, such as funding new counselors.

       Five of the 15 staff were secretarial positions that, in fiscal year 1996, accounted for
32.5 percent of the annual available staff hours (see the table). The remaining ten staff
positions consisted of five counselor, three administrative, and two research positions.

                                Secretarial versus Other Staff Resources

    Description     Secretary         Admin.    Research    Counseling*   Total Staff
                                                Assistant
  Total Staff              5.0            3.0       2.0          5.4         15.4
  Total Hours           9,040          5,424     3,616         9,763       27,843
  % Hours To
  Total                 32.5%         19.5%     13.0%         35.0%         100%

       *Includes direct counseling, advocacy, training, and counselor administration

       The State Director stated that the physical separation of the Hawaiian islands and the
nature of counseling required one secretary per counselor per sub-center, including Honolulu.

        Present technology, such as electronic mail, fax machines, cellular telephones and call
forwarding, however, provide options for improving counselor efficiency while reducing
direct secretarial support. One possible scenario to make additional funds available for
counseling service would be to (i) consolidate the secretarial functions in the Hilo sub-center
and the HSBDC lead office, the Leeward and downtown Honolulu sub-centers, and the Maui
sub-center and the Business Research Library ; and (ii) fund the Maui and Business Research
Library secretary position using Library funds. Implementation of these actions would reduce
the cost of secretarial services by about $69,000 which could be used to fund additional
counselors.

Counseling service to the Kona area

        In March 1996, the HSBDC budget was reduced and the State Director terminated the
circuit rider counselor for the Kona area. The Kona area counselor position had the greatest
number of hours charged to counseling in 1995. The Hilo sub-center director, who lived
halfway between Hilo and Kona, was assigned the Kona area but provided counseling service


                                                6

in Kona for only two days a month. Kona small business clients desiring counseling service
more often had to drive over 200 miles round trip to Hilo.

       With the elimination of the circuit rider, counseling hours in the Kona area in 1996
declined from 1,134 hours in 1995 to only 321 hours in 1996. This decline occurred during a
period when local business and government officials reported that Kona was experiencing
economic growth and many small businesses needed counseling services.

       Implementation of the actions to increase counseling positions discussed in the
preceding paragraphs should enable the HSBDC to assign a circuit rider to the Kona area
without an increase in the present funding level.

The Leeward sub-center

        To implement an outreach strategy approved by SBA, the HSBDC hired a second
counselor for Oahu and opened a new sub-center in Leeward, Oahu. When the Leeward sub-
center opened, many of its clients were already served by the downtown Honolulu sub-
center. These clients also had access to 66 private management consulting firms. Since none
of the population pool was more than 32 miles from the downtown Honolulu sub-center, we
questioned the necessity for opening a second sub-center only 12 freeway miles and about 20
minutes away from the downtown sub-center.

       Based on our observations, the new Leeward sub-center neither increased the service
area nor access to available services. As of May 31, 1997, the State Director was planning to
add a secretary to the Leeward sub-center instead of consolidating operations on Oahu. Since
the Leeward sub-center did not substantially expand services to new clients, the State Director
should consider closing the sub-center and using those resources to meet higher priority
counseling requirements.

Recommendations:

       1.     We recommend that the District Director, Honolulu District Office, direct the
       State Director to submit a plan to increase counseling hours and reduce administrative
       time. Actions to assist in accomplishing this could include

       •   	reducing secretarial positions by consolidating secretarial functions,
       •   	re-establishing the Kona area circuit rider position,
       •   	consolidating the Leeward Oahu and downtown Honolulu sub centers, and
       •
       	using the current Leeward counselor to provide small business counseling to the
        downtown Honolulu sub-center and the Kona area.
SBA Management Response

                                                7

       The District Director agreed with the recommendations and directed the HSBDC State
Director to (1) develop and incorporate reporting procedures which more accurately record
counseling, training, research, and advocacy activities; and (2) analyze and develop a plan to
maximize client service delivery to the small business community based on economic
conditions and projected trends statewide.

        The District Director also stated that the HSBDC is set up to satisfy Hawaii's unique
needs and compares favorably with other SBDCs when counseling, training, advocacy and
research are considered. He stated that the comparison of counseling hours to all other
activities undertaken by the HSBDC misrepresented actual performance by under-reporting
training hours and highlighted the need to develop a reporting system to credit work more
correctly and consistently. Also, he stated that the one-to-one ratio of counselor to secretary
is the current “model” for the HSBDC (see Appendix A).

Evaluation of SBA Management Response

        The District Director's actions are responsive to our recommendations. We believe,
however, that the plan to maximize program delivery should include a review of the current
staffing “model.” A one-to-one counselor to secretary position may no longer be reasonable
or supportable. Although the District Director stated that the HSBDC compared favorably
with other SBDCs, no statistics were provided to support this position.

Auditee Response and OIG Evaluation

        The HSBDC State Director disagreed with the finding and recommendations and
several statements and conclusions (see Appendix B). The response, however, did state that
the HSBDC would address the need for greater client services to the small business
community in the annual revision of its strategic plan. Based on additional factual
information provided by the HSBDC, certain minor changes and deletions were made to the
report. OIG evaluation of the responses is in italics.
        • 	The Director, HSBDC agreed that counseling is an important part of program
            delivery but questioned whether counseling should be considered the primary
            method of program delivery.

           The HSBDC’s performance standards indicated that counseling is the principal
           method of program delivery. The SBDC Program Office considers counseling to
           be the primary client service because it provides a solution to a small business
           client’s specific problem. Oftentimes such problems are very complex and can be
           solved best through counseling. While training is an important part of client
           services and is useful in disseminating information that is not client specific, it
           does not provide the one-on-one solution that counseling provides.



                                               8

•   	The Director disagreed that the HSBDC had a total of 15 staffing positions.
     Instead, he stated that 13.54 full-time equivalent positions were available in fiscal
     year 1996.
     The information regarding the number of staffing positions and the hours spent
     providing counseling services was developed using the counseling records and
     staff interviews at the HSBDC. To determine the full time equivalent positions, we
     included all time charged to HSBDC activities divided by the total number of staff
     hours available for a year. Adjusting for holidays, vacation, and sick leave, we
     computed that the staff hours available per employee was 1,808. In addition, we
     excluded the time individuals charged to the Department of Defense grant from the
     hours available to the HSBDC. Based on the above assumptions and counseling
     records of the HSBDC, we calculated that the total staff hours available equaled
     15.3 and 15.4 full time equivalent staff positions in 1995 and 1996, respectively.
     We were not provided the HSBDC records that the Director used to calculate the
     full time equivalent positions of 13.54 in 1996.

•   	The Director stated that client service positions (including counselors and research
     staff) constituted about 52.6 percent and 52.4 percent of its total staffing positions
     in 1995 and 1996, respectively. Therefore, the HSBDC dedicated only 47.4
     percent and 47.6 percent, respectively, to non-client service positions.

    We excluded research staff hours from the counseling hour calculations because
    their research efforts could not be defined as one-on-one counseling. In addition,
    the lack of any useable HSBDC records precluded quantifying the research staff
    hours for counseling calculation purposes. We therefore concluded that HSBDC
    classification of research staff hours as client service positions is not appropriate
    for counseling hour calculations.

•   	The Director stated that direct counseling hours were 20.6 percent and 18.9 percent
     of all positions in 1995 and 1996, respectively, and the HSBDC was 51st out of 57
     SBDCs in counseling hours in FY 1996. He added that the statistics used for
     comparison purposes were not comparable because the HSBDC maintained
     consistent definitions for statistical reporting purposes internally; however, these
     definitions may not be consistent with other SBDCs. He disagreed with the
     statement in the report that counseling services were low and considered
     counseling services to be appropriate given the other services provided and the
     strategy developed for Hawaii.

    Based on 13.54 staffing positions, the HSBDC computed direct counseling time for
    1995 and 1996 was 20.6 percent and 18.9 percent, respectively. We consider the
    counseling percentages computed by the HSBDC to be low. Ranking SBDC’s by
    counseling hours provides an indication, for nationwide comparison purposes, as
    to the level of effort an SBDC expends on counseling. The ranking of SBDCs for
                                         9

    counseling services provided was determined by using a standard measure ­
    dividing the total number of hours charged to counseling by the total amount of
    Federal dollars received. Using this approach, the HSBDC ranked 52nd in
    providing counseling services for Federal fiscal year 1996. The HSBDC ranking
    indicated it is below the national average and needs to increase its counseling
    hours.

•   	The Director stated that although the number of secretarial positions may appear
     high, the number is appropriate as a percentage of resources. Secretarial positions
     comprised 22.7 percent of the total position resources. The Director also stated
     that in addition to performing administrative functions, secretaries perform some
     client services. Reducing the number of secretaries would adversely affect the
     morale, efficiency and effectiveness of the HSBDC.

    We agree that the secretarial staff provides an invaluable service to the HSBDC.
    We believe, however, that with modern technology, the number of secretarial
    positions may be reduced without adversely affecting administrative support and
    the resources directed to providing client services. With advancement of such
    technology as word processing, electronic mail, voice mail, fax machines, and
    cellular telephones, many of the duties performed by a secretarial staff are now
    done by a non-administrative individual. For example, voice mail allows callers to
    leave messages which the counselor can retrieve and answer at his or her
    convenience when not available or out-of-town. Voice mail also allows call
    forwarding so that local or remote offices can receive and answer phone calls even
    though a secretary is not available to answer the calls or receive messages. With
    email and computers, counselors can also prepare final documents and send or
    receive mail without the services of a secretary. The scenarios described above
    should decrease the number of secretarial positions needed to support counselor
    positions.

•   	The Director questioned the accuracy of the actions proposed to enable an increase
     in counseling hours within the current funding levels. The proposed actions were
     considered counter-productive for Hawaii. The HSBDC State Director stated
     eliminating two secretarial positions would not provide sufficient funds to hire one
     full-time counselor.

    Based on HSBDC payroll information for secretarial positions versus counselor
    positions, we determined that consolidating secretarial positions as described in
    the finding would provide sufficient funds to hire at least a part time counselor.
    The discussion in the finding suggesting that the number of secretarial positions be
    reduced was only one approach that the HSBDC might take to increase counselor
    positions within current funding levels. If the HSBDC implements the
    recommendation in Finding 2 to increase fund raising, additional counselors may
                                       10

          be hired and the current number of secretarial positions may be sufficient to
          support additional counselors.

      •   	The Director questioned the statement that the terminated counselor (Kona area
           circuit rider) was the most productive. Adjusting for travel time, the Kona area
           counselor was not as productive as claimed. If the Kona counselor’s hours were
           adjusted for travel time, the number of hours spent providing counselor hours
           decreased to 897 from 1,134. Furthermore, if the Kona counselor’s hours were
           adjusted for the average time spent by other counselors in administrative duties and
           advocacy, the number of actual counseling hours would decrease to 762. The
           Kona counselor had minimal or no administrative, supervisory, or outreach duties.

          The statement that the Kona counselor was the most productive was based on
          HSBDC counseling records. This counselor charged more time to counseling than
          any other counselor position. We were unable to verify the new HSBDC data and
          do not know what records were used to recalculate the counselor’s performance.
          We recognize, however, that the number of clients served through counseling is
          also an indicator of productivity. To evaluate productivity, the number of clients
          served, the type of service provided, and the amount of time charged to counseling
          must be considered. Based on the HSBDC’s response we changed the report to
          read the counselor with the greatest number of hours charged to counseling was
          terminated.

      •   	The Director disagreed that HSBDC should consider closing the Leeward sub-
           center. The Leeward sub-center was opened at the mandate of SBA to increase
           delivery of HSBDC services on Oahu.

          The delivery of increased HSBDC services on Oahu was the result of adding a
          counselor position. The goal of increasing program delivery could have been
          achieved without establishing the Leeward sub-center. The second counselor
          position could have been assigned to the Honolulu sub-center. Consolidation of
          the Leeward and the Honolulu sub-centers should not reduce the delivery of
          services but could reduce operating costs Although SBA approved the HSBDC
          outreach strategy to add two more counselors to Oahu, it did not mandate the
          opening of the Leeward sub-center or any realignment of counselor resources.


                           HSBDC ADDENDUM RESPONSE

Finding 1: Counseling Services Could be Increased

Auditee Response and OIG Evaluation


                                             11

        The HSBDC State Director, in an addendum to his response to the draft report,
disagreed that the total counseling hours for the Kona area for 1996 was 321 hours. He stated
the total was 653 hours, which represented an understatement of 103.4 per cent. The State
Director also said the 321 hours covered only the period from January 1, 1996 to March 15,
1996 and should have included the 332 counseling hours provided by the Hilo center director
during the period March 15, 1996 to December 31, 1996.

       The HSBDC State Director addendum response did not change the thrust of the
finding and recommendation. The audit focused on 1995 operations and provided updated
1996 data based on documents provided the auditor by the HSBDC. The 321 hours reported
for 1996 was based on counseling hour reports the HSBDC provided the auditors. The
additional 332 hours claimed by the State Director was not identified on the HSBDC
counseling hour reports as being provided to the Kona area. Accepting the fact that the total
counseling hours for the Kona area in 1996 was 653 hours instead of 321, the number of
counseling hours still decreased by 42 percent from the 1995 level of counseling services
provided.

Finding 1: Counseling Services Could be Increased

Auditee Response and OIG Evaluation

        The HSBDC State Director stated in his addendum response that the existence of 66
management firms on Oahu was immaterial to the program because the SBA program
announcement prevented the HSBDC from competing or appearing to compete with the
private sector. As a result, the HSBDC did not consult with companies which could afford
the private consultants.

        The addendum response did not change the finding and recommendation contained in
the audit report. The presence of 66 management consulting firms is not material to the
finding. The finding focused on the appropriateness of opening a second center on Oahu only
12 miles and 20 minutes away from the Honolulu sub-center. The Leeward sub-center did not
increase the service area or access to available services and was not mandated by SBA. The
new sub-center represented an inefficient use of resources and increased HSBDC operating
costs during a period when its budget was being reduced. Based on our observations, the
goal of increasing program delivery could have been achieved without establishing a new
office.


FINDING 2       Program Funding from Private and Public Sources should be Sought

        The HSBDC was vulnerable to UH-Hilo funding fluctuations as demonstrated by
fiscal years 1993 and 1995 UH-Hilo funding reductions. As a result, HSBDC’s ability to


                                             12

deliver program services to the small business community was hampered. Increased fund
raising would allow the HSBDC to reduce the impact of UH-Hilo funding fluctuations.

SBDC program objectives are important to the business community

        The Cooperative Agreement states the program objectives are to strengthen the small
business community, contribute to its economic growth and make assistance available to
small businesses. The presidents of each islands’ chamber of commerce, officers of various
banks, and county officials throughout the State of Hawaii endorse the HSBDC. Several of
these business and public officials agreed that the program provided a crucial adjunct to
efforts to overcome the economic recession in Hawaii.

Funding reductions resulted in a proposed outreach strategy

        UH-Hilo funding reductions in fiscal years 1993 and 1995 resulted in staffing cuts,
including layoffs of the associate state director, the administrative assistant, and the Kona area
counselor. SBA began addressing these issues in an October 5, 1994, letter which
recommended that the HSBDC implement fund raising from other sources such as the private
sector. It was also suggested that the lead center relocate from UH-Hilo to Oahu where most
of the potential funding sources were located. Subsequent memorandums in 1994 and early
1995 reiterated SBA’s concerns. The State Director, the UH-Hilo Chancellor, one of
Hawaii’s U.S. Senators and Representatives, and community leaders opposed the relocation
of the lead center to Oahu for the following reasons:

       •   	The advances in telecommunications (such as cellular telephones, fax capability,
            and electronic mail) and the ease of travel from Hilo to Honolulu eliminated the
            need to be physically located in Honolulu, Oahu.
       •   	The Hilo location was based on a desire by Hawaii’s Congressional delegates to
            promote small business development in the rural areas of Hawaii.
       •   	The HSBDC was needed on the outer islands, which are rural and have high
            unemployment rates, to assist in the development of small businesses and diversify
            the economy upon the demise of Hawaii's sugar industry.
       •   	The support of the UH-Hilo, its host institution, would be lost by relocating to
            Honolulu, Oahu.

        On March 3, 1995, HSBDC proposed a compromise outreach strategy to increase
program funding by raising funds from the public and private sectors and increasing staff by
two additional counselors on Oahu. On March 20, 1995, SBA approved this outreach
strategy and recommended that (i) the HSBDC seek funding from other sources, such as the
private sector, to expand and strengthen its program; and (ii) the UH-Hilo make no further
cuts in its matching funds.

                                               13

Outreach strategy activity not fully implemented

       Although the HSBDC met its outreach strategy fund raising goals for fiscal years 1995
and 1996, the funds were encumbered and could not be used to increase the number of
counselor positions as required by the outreach strategy. All of the funds raised were
contractually encumbered for new requirements represented by the Business Research
Library. In December 1995, the State Director added a second counselor to Oahu, eliminated
the Kona area counselor in February 1996, and, as of May 1997, had yet to provide the
promised third counselor.

        Contrary to SBA’s recommendation that no further cuts occur in matching funds, the
UH-Hilo chancellor informed the State Director to expect another funding reduction of
$25,000 for fiscal year 1998 (July 1, 1997 through June 30, 1998). With a similar reduction
in the Federal cash match, the reduction could total $50,000. The State Director told us if the
funding cuts materialized, he would probably further reduce program staff and counseling
services.

Potential fund raising efforts

        The HSBDC can avert reduced operations by increasing private and public fund
raising. On Oahu, for example, we found funds were available from the following sources:

       •   	The Bank of Hawaii stated it had $2 million for community development with $1
            million available to organizations like the HSBDC. Application for such funding
            would be required.
       •   	The First Hawaiian Bank and the City and County of Honolulu Housing and
            Community Development Department had funds available if the HSBDC would
            apply.

       The State Director stated he would follow up on each lead.



Rationale for the lack of fund raising efforts

        The State Director said he had not attempted to raise funds from other sources, such as
those mentioned above, because HSBDC did not have an Associate State Director.
According to the State Director, filling the position of Associate Director would enhance his
ability to raise funds.

Recommendation



                                              14

       2.     We recommend that the District Director, Honolulu District Office, direct the
       State Director to implement SBA’s recommendation to raise funds from private sector
       and local government entities with initial fund raising efforts directed toward the
       sources identified during the audit.


SBA Management Response

       The District Director reported the HSBDC has taken action to address this
recommendation by successfully raising additional funds for its operations. The District
Director also directed the HSBDC State Director to continue to aggressively seek out
appropriate fund raising and partnership activity.

Evaluation of SBA Management Response

       The District Director actions are responsive to our recommendation.

Auditee Response

        The HSBDC generally agreed with the finding and recommendation. The State
Director stated that the recommendation was already being implemented prior to the audit exit
conference, except for the sources identified during the audit. After the audit work was
completed, the HSBDC State Director contacted the sources identified by the auditors which
resulted in the raising of additional funds from the City and County of Honolulu. The
HSBDC also met with the University of Hawaii president who agreed to restore funding and
to transfer future year HSBDC funding to the larger state budget.

Evaluation of Auditee Response

       The HSBDC actions are responsive to our recommendation.

FINDING 3 Financial and Performance Reporting Needs Improvement

       HSBDC generally complied with the Cooperative Agreement, except for certain
reporting and approval requirements. Financial and performance reports for fiscal years 1995
and 1996 were either not prepared or were inaccurate and untimely. According to the
HSBDC and its accounting agent, the reporting and approval requirements were not followed
because of data transfer errors, late submission of data, and unfamiliarity with reporting
requirements. As a result, SBA did not have accurate, complete, and timely information to
determine if Federal funds were used effectively and efficiently.

Financial Status Reports (SF 269)


                                             15

        The Financial Status Report for 1995 was not submitted timely, contained inaccurate
financial data, and omitted program income expense information. The Cooperative
Agreement required the HSBDC to submit a final SF 269 report no later than 90 days after the
end of a budget period. The 1995 final SF 269 was submitted
seven months late, and the 1996 report was over three months overdue as of July 15, 1997.
The reports were late because expenses were not finalized until nine months after the end of
the calendar year.

       The 1995 report contained inaccurate financial data on costs, recipient outlays, and
indirect expenses. The inaccuracies occurred because the program income and expenses were
commingled with project expenses. Other inaccuracies occurred because indirect costs were
reported as outlays per the approved budget.

       The Cooperative Agreement and 13 CFR §130.480 require all program income to be
reported on the SF 269 in detail with a description of how it was used to further program
objectives. As of the end of Fiscal Year 1996, a balance of over $68,000 was carried in
accumulated program income and not reported on the SF 269 reports.

        The State Director said this occurred because 13 CFR §130.480 (c) did not specify
which standard forms to use and the SF 269 did not explicitly request this information. In
addition, it was believed that the total program income disclosure in the annual proposal
satisfied the 13 CFR requirement. As a result, SBA was not aware that, by the end of 1996,
over $68,000 in program income was available which could have been used to expand
services, such as counseling.

Performance reports

       The Cooperative Agreement and 13 CFR §130.820 (c) required that semi-annual and
annual performance reports be provided to SBA that showed actual versus budgeted financial
expenditures by cost categories. We were told that these financial reports were not prepared
and submitted because the HSBDC was not aware of the requirement and the Program
Announcement sections on performance reports were not cross-referenced to the SBA Notice
of Award sections. As a result, SBA could not accurately monitor the financial performance
of the HSBDC.

Recommendations:

       3.     We recommend that the District Director, Honolulu District Office, require the
       State Director to:

       A.	    Ensure the University of Hawaii accounting agent takes actions to submit
              timely data and correct data transfer and accounting problems.


                                             16

       B.	    Ensure SF269 reports show how program income was received and used to
              further program objectives.

       C.	    Prepare and submit semi-annual and annual performance reports showing
              actual versus budgeted financial expenditures by cost categories in accordance
              with the Cooperative Agreement.

SBA Management Response

       The District Director agreed with the recommendations and reported the HSBDC State
Director and staff had instituted several measures to facilitate more timely reports and
compliance with the reporting requirements. The District Director also directed the HSBDC
State Director to continue to work closely with the UH grants management personnel to
resolve all reporting compliance issues.

Evaluation of SBA Management Response

       The District Director actions are responsive to the recommendations.

Auditee Response

        The HSBDC generally agreed with the finding and recommendations. The Director
stated that all performance reports were accurate and filed on time, although he agreed that
program income and expenses were inaccurately reported and acknowledged that the HSBDC
failed to submit actual versus budgeted financial expenditures reports as required by the 1995
Cooperative Agreement. The Director met with the HSBDC accounting agent to ensure
timely and accurate submission of reports. The Director stated the HSBDC complied with the
program income and performance reporting requirements after the auditors brought this to his
attention.

Evaluation of Auditee Response

       The HSBDC actions are responsive to our recommendations.

FINDING 4 Indirect Costs and In-kind Contributions Need Correction

       Expenditures were reasonable, allowable, and allocable with two exceptions - indirect
costs of $15,083 and in-kind costs for rent of $15,332. Conversely, indirect costs of $34,837
were not claimed as matching funds. Since the questioned costs were offset by unclaimed
indirect costs, no refund of Federal funds is due. These exceptions occurred because the
accounting agent used the wrong indirect cost rates and the HSBDC did not prorate its in-kind
rent. The HSBDC believed it did not need to calculate indirect costs for non-Federal
matching funds when the matching amount exceeded the Federal amount.

                                             17

Indirect cost rates
       The Federal government negotiates indirect cost rates for use on all UH-Hilo Federal
agency grants, contracts and/or agreements. The rates are negotiated in accordance with cost
principles mandated by OMB Circulars A-21 and A-88.

        The HSBDC accounting agent used an incorrect rate to determine the Federal indirect
cost rate. The accounting agent should have classified HSBDC operations into on-campus
and off-campus. By using the On-Campus-Sponsored Training indirect cost rate of 23.66
percent to burden direct costs, indirect costs of $15,083 were overstated. The correct indirect
cost rates were 21.14 percent (On-Campus-Other Sponsored Activities) for the Lihue, Kauai
sub-center and the Hilo, Hawaii lead center and 19.59 percent (Off-Campus-Other Sponsored
Activities) for the other sub-centers. The following table itemizes the indirect costs
questioned.


                           Calculation of 1995 Indirect Costs Questioned

                                       Amount Claimed
       Federal Funds        Sub-Center      Cost Category        Indirect Rate   Indirect Costs
                                         On-Campus ­
           $433,455            All       Sponsored Training        23.66%             $102,555
   Total Indirect Costs
   Claimed                                                                            $102,555
                                       Amount Allowed
       Federal Funds        Sub-Center     Cost Category         Indirect Rate   Indirect Costs

          $165,097        Hilo, Hawaii    On-Campus -Other         21.14%
                          Lihue, Kauai    Sponsored Activities                        $ 34,901
                                          Off-Campus ­
          $268,358        Other Sub-      Other Sponsored          19.59%
                          centers         Activities                                  $ 52,571
   Total Indirect Costs
   Allowed                                                                            $ 87,472
   Indirect Costs
   Questioned                                                                         $ 15,083

In-kind rents - Honolulu

       Paragraph C4, OMB Circular A-21, requires in-kind rent to be prorated among the
benefiting institutions. The Bank of Hawaii in-kind contribution for office space was not
prorated between the downtown Honolulu sub-center and the other tenant, SCORE. The
                                             18

HSBDC in-kind contribution was overstated by $20,908. In addition, the HSBDC claimed an
in-kind contribution of $12,146 for the Maui Technology and Research Center office space.
The fair market value of this space was $17,722. Allowable in-kind contributions were
thereby understated by $5,576. As a result of the over and under statements, questionable in-
kind contributions for the office spaces totaled $15,332.

Unclaimed costs

       OMB Circular A-21, paragraph C1, permits the HSBDC to claim indirect costs on UH-
Hilo funds. The HSBDC did not claim $34,837 in allowable indirect costs attributed to the
state matching direct costs because the total matching funds of $435,347 exceeded the Federal
funds of $433,455 received. The table itemizes the unclaimed allowable indirect costs for
1995.

                            Unclaimed Allowable 1995 Indirect Costs

                               Description                            Amount
              State Matching Direct Costs                              $256,396
               Less: Equipment, Rental & Burdened BRL                    88,902
              Costs
              Net State Matching Direct Costs                          $167,494

              Applicable Indirect Cost Rate:
                 On-Campus - Hilo, Lihue ($130,584 x                    $27,606
              21.14%)
                 Off-Campus - Other Sub-centers
                 ($36,910 x 19.59%)                                      $7,231
              Allowable Indirect Cost Not Claimed                       $34,837


Recommendations:

       4.     We recommend that the District Director, Honolulu District Office, require the
       State Director to:

       A.     Use correct negotiated indirect cost rates to allocate expenditures.

       B.     Prorate in-kind rent costs.

       C.     Compute allowable indirect costs for matching funds regardless of the amount
       of Federal funds received.

SBA Management Response
                                              19

        The District Director stated the HSBDC accounting agent has taken steps to remedy
the discrepancies and the University of Hawaii is currently evaluating data to determine the
appropriate cost rates for the HSBDC activities. The District Director directed the HSBDC
State Director to incorporate the cost rate recommended by the University of Hawaii study
group.

Evaluation of SBA Management Response

       The District Director actions are responsive to our recommendations.

Auditee Response

        The HSBDC State Director agreed with the finding and recommendations. He
reported the University of Hawaii incorrectly classified the HSBDC, and discussions are in
process to correct the problem for FY 1997 and subsequent years. The HSBDC State Director
stated program income and its uses in furthering HSBDC objectives has been implemented
and in-kind rents will be prorated as recommended by the audit team. In-kind allowable
indirect costs were not claimed because HSBDC’s accounting agent could not agree on
whether the costs could be claimed. HSBDC also stated that the requirement for SBA
approval of contracts in excess of $5,000 was eliminated beginning in FY 1996.

Evaluation of Auditee Response

       The HSBDC State Director actions are responsive to our recommendations. The
recommendation to obtain SBA approval of contracts awarded in excess of $5,000 was
deleted.




                                              20

                                   RESPONSE FROM

 THE HAWAI`I SMALL BUSINESS DEVELOPMENT CENTER NETWORK

         A Partnership Program between the University of Hawai`i at Hilo and

                       The U.S. Small Business Administration



                       TO THE DRAFT AUDIT REPORT ON THE


        HAWAI`I SMALL BUSINESS DEVELOPMENT CENTER NETWORK


                              AUDIT REPORT NO. 8-7-F-004





                                                                                      11/02/97

This Response, written in reply to the transmittal letter of 10/16/97 from Peter L. McClintock,
                                              21

Assistant Inspector General for Auditing of the SBA's Office of Inspector General and
received on 10/20/97, may not be abridged, abstracted, excerpted, summarized, synopsized or
quoted, except in its entirety, without the prior written approval of the Hawai`i Small Business
Development Center Network.



                                          TABLE OF CONTENTS



AUDITEE'S SUMMARY                    .........................................                             3



GENERAL RESPONSES                    .........................................                             6



RESPONSES TO INTRODUCTION

    A. Background           ...............................................                                8


    B. Audit Objectives and Scope . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    8



RESPONSES TO RESULTS OF AUDIT


    Finding 1:        Counseling Services Could Be Increased by Reallocating 

                      Staffing Resources                                   ...                            13


    Finding 2:        Program Funding from Private and Public Sectors                         ......      31


    Finding 3:        Reporting and Approval Requirements                      ...............            37


    Finding 4:        Indirect Costs and In-Kind Contributions . . . . . . . . . . . . .                  41



OTHER AUDIT ISSUES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .      44





                                                         22

Hawai`i SBDC Network Response
To Draft Audit Report No. 8-7-F-004




                                 AUDITEE'S SUMMARY

    The Hawai`i Small Business Development Center (SBDC) Network, established seven
years ago, has built its program on an SBA base grant in 1995 and 1996 of $433,455, which
has been matched by the University of Hawai`i at Hilo and others. According to an economic
impact study,1 long-term clients of the Hawai`i SBDC Network in 1995 generated nearly $14
million in incremental2 sales, $500,000 in incremental state and federal taxes, and $6.5
million in debt and equity financing during a period in Hawai`i characterized by a stagnant
economy at recessionary levels. Additionally, 90.9% of long-term clients indicated that
services received were beneficial to them, rated the counselors at 91.6% regarding knowledge
and expertise, and rated their counselors at 91.6% regarding the quality of their working
relationship. Another study indicated that the annual economic impact of the Hawai`i SBDC
Network was $17,375,113.3

    During 1995 and 1996, the years audited, the Hawai`i SBDC Network provided
counseling to nearly 2,000 companies through its five centers statewide, conducted nearly 300
training events with approximately 5,600 attendees, and provided over 3,000 responses to
research requests. Additionally, the Hawai`i SBDC Network professional staff worked
actively throughout Hawai`i as advocates for economic development.

   These are, then, the achievements of the Hawai`i SBDC Network and the context within
which the SBA Office of the Inspector General conducted its audit in 1997.

   In response to that audit, the Hawai`i SBDC Network makes the following claims:


       1
        Chrisman, James J., Ph.D. The Economic Impact of Small Business Development
Center Counseling
       Activities in Hawaii: 1994 - 1995. University of Calgary: November, 1996.
       2
         Incremental impact includes only that which is above state economic indices and
only that which occurred as
       a direct result of Hawai`i SBDC Network assistance.
       3
        Hammes, David L., Ph.D. The Annual Economic Impact of the Hawaii Small
Business Development
      Center. University of Hawai`i at Hilo: May, 1997.
Hawai`i SBDC Network Response
To Draft Audit Report No. 8-7-F-004


      Objectives. Of the three objectives cited by the auditors, the one concerning the
      effective use of resources to provide counseling assistance to the small business
      community is too narrowly drawn to provide a meaningful evaluation by the auditors.
      The national SBDC Program defines its objectives and purpose in broadly based
      economic development terms, not just in counseling assistance. Under the Program's
      defined services, counseling is only one of nine services mentioned, none of which is
      given priority for achieving the SBDC Program's objectives and purpose. The Hawai`i
      SBDC Network's strategy encompasses four tactics: advocacy, counseling, research,
      and training. To examine one tactic--counseling--out of the context of all,
      misrepresents the whole. See pages 8 - 12 for a detailed response.

      Finding 1. The auditors state that counseling services could be increased by
      reallocating staffing resources and, presumably, should be increased because a
      disproportionate amount of staffing is devoted to non-counseling services. The
      Hawai`i SBDC Network has responded that (1) the objective to which the finding
      responds is too narrowly constructed, (2) that the finding lacks materiality, and (3) that
      the defining documents of the SBDC Program (a) do not give primacy to counseling
      over other tactics and (b) do not provide any standard or goal for counseling other than
      those goals negotiated annually with and approved by the SBA, goals which the
      auditors admit the Hawai`i SBDC Network has met or exceeded. The Hawai`i SBDC
      Network believes that the auditors have based their finding on an inappropriate and
      insufficiently examined criterion, that the criterion used is inconsistent with the
      published data, and that the Hawai`i SBDC Network nonetheless compares favorably
      with other states when using the published data. The balance of the auditors'
      observations are based on conjecture rather than upon evidence that is sufficient,
      competent, and relevant, as required by the GAO's Government Auditing Standards.
      See pages 13 - 29 for a detailed response. Based on the detailed response, the Hawai`i
      SBDC Network requests that Finding 1 and its recommendations be withdrawn.

      Finding 2. The auditors state that increased funding from private and public sectors
      would increase funding stability for the Hawai`i SBDC Network and allow for the
      more effective use of resources in counseling assistance. The Hawai`i SBDC Network
      believes that the auditors' observation is inappropriate as a finding (1) because it lacks
      materiality, (2) because no criterion exists upon which to base a finding, and (3)
      because it is unrelated to the audit objectives. The defining documents of the SBDC
      Program do not require fund-raising, have neither goals nor standards concerning
      fund-raising, and publish no statistics regarding fund-raising. If there were SBA goals
      or standards for fund-raising, the Hawai`i SBDC Network would rank high in any
      comparison or against any standard. In the current year, the Hawai`i SBDC Network
      has raised funds, in addition to the host institution's match, that are 173.9% greater
Hawai`i SBDC Network Response
To Draft Audit Report No. 8-7-F-004


       than the SBA grant. Few SBDCs can meet that accomplishment. See pages 30 - 35
       for a detailed response. Based on the detailed response, the Hawai`i SBDC Network
       requests that Finding 2 and its recommendations be withdrawn.

       Finding 3. The auditors state that the Hawai`i SBDC Network was not in compliance
       with certain reporting and approval requirements. We concur with the specific
       examples cited (except for the approval of contracts exceeding $5,000), though not
       their generalized statement, and are now in compliance. See pages 36 - 39 for a
       detailed response.

       Finding 4. The auditors state that an incorrect indirect cost rate is being used and in-
       kind rent rates were not properly prorated. The Hawai`i SBDC Network cannot
       evaluate the auditors' conclusion regarding indirect cost rates because they have not
       included in the Draft Audit Report their justification. Based on functions performed
       and the principal setting of the Hawai`i SBDC Network, we believe the indirect cost
       rate in use is correct. We concur with the analysis of in-kind rent rates and are now in
       compliance. See pages 40 - 42 for a detailed response. Based on the detailed
       response, the Hawai`i SBDC Network requests that the subpart of Finding 4 regarding
       indirect cost rates be set aside.

   The GAO "Yellow Book" states in paragraph 7.42 of the Generally Accepted Government
Audit Standards (GAGAS): "When the comments [by responsible officials of the audited
program] oppose the report's findings, conclusions, or recommendations, and are not, in the
auditors' opinion, valid, the auditors may choose to state their reasons for rejecting them.
Conversely, the auditors should modify their report if they find the comments valid." (Italics
added)4




       4
       Comptroller General of the United States, Government Accounting Office.
Government Auditing      Standards. 1994 rev. para. 7.42.
Hawai`i SBDC Network Response
To Draft Audit Report No. 8-7-F-004




                                GENERAL RESPONSES


   Following are general responses by the Hawai`i SBDC Network to the overall Draft Audit
Report that do not fall within the specific findings and recommendations:

   1. The Hawai`i SBDC Network believes that the Draft Audit Report results do not comply
   in certain respects to the GAO promulgated Generally Accepted Government Audit
   Standards (GAGAS) as published in the GAO "Yellow Book".5 At paragraph 7.18, the
   GAO "Yellow Book" states: "Auditors should report significant findings developed in
   response to each audit objective. \2 In reporting the findings, auditors should include
   sufficient, competent, and relevant information to promote adequate understanding of the
   matters reported and to provide convincing but fair presentations in proper perspective.
   Auditors should also report appropriate background information that readers need to
   understand the finding." (Italics added.) At paragraph 7.41, the GAO "Yellow Book"
   states: "Advance comments should be objectively evaluated and recognized, as
   appropriate in the report." Note the following examples:

      a. With respect to Finding 1, "Counseling Services Could Be Increased by
      Reallocation of Resources," and sub-finding of Finding 3, "Approval of Consultant
      Contracts," the Hawai`i SBDC Network provided in writing to the auditors sufficient
      and relevant information which we believe provided facts which should have
      precluded issuance of a Finding, but if included in the Draft Audit Report would have
      provided a fair background presentation for readers to understand the finding. Such
      advance comments were neither responded to nor addressed or included in the Draft
      Audit Report. The facts communicated in writing to the auditor were (i) that the goals
      and level of counseling (Finding 1) are required by the SBA Program Announcement
      to be negotiated between the SBDC State Director and the SBA District Director and
      are subsequently incorporated into the Cooperative Agreement. Such negotiations
      occurred, and counseling goals were established and incorporated into the Cooperative
      Agreements. Counseling goals were contractually met and exceeded. No mention of
      all of these facts is presented in the Draft Audit Report in the discussion of Finding 1.
      Further, despite the fact that a stated audit objective was to determine whether
      operations were in conformance with the Cooperative Agreement, and recognizing that

      5
       Comptroller General of the United States, Government Accounting Office.
Government Auditing Standards. 1994 rev.
Hawai`i SBDC Network Response
To Draft Audit Report No. 8-7-F-004


      the goals for counseling were in conformance with the Cooperative Agreement,
      Finding 1 postulates that insufficient counseling was undertaken by the Hawai`i SBDC
      Network.

      b. Concerning Finding 3, "Approval of Consultant Contracts," the Hawai`i SBDC
      Network provided to the auditors upon request facts addressing this finding. They
      conveyed that through FY 1995, the requirement for prior approval of consultant
      contracts exceeding $5,000 was not consistent with OMB Circular A-110, the
      provisions of which are incorporated into the Cooperative Agreement. Absent an
      approved deviation from OMB, the provisions of the Circular govern. Under the
      Circular, no prior approval is required for contracts exceeding $5,000. For FY 1996
      and subsequently, prior approval of contracts exceeding $5,000 was eliminated in the
      Cooperative Agreement. Again, despite communicating this relevant information to
      the auditors, the Draft Audit Report does not address nor incorporate these
      circumstances.

   2. The Hawai`i SBDC Network believes that the auditors should incorporate the
   recommendation of the GAO "Yellow Book," which states: "Auditors should report
   noteworthy accomplishments . . . ." (7.43) "Such information provides a more fair
   presentation of the situation by providing appropriate balance to the report." (7.44) Such
   information, along with greater background information on the organization being
   audited, would provide third-party users of audit information with greater understanding
   and a reduced likelihood of misperceptions. The GAO "Yellow Book" states: "Being
   complete[, which is part of the fourth reporting standard for performance audits,] . . . also
   means including appropriate background information." (7.51)

   3. The Hawai`i SBDC Network believes that the shaping of findings in performance audits
   to reflect only quantitative data, excluding qualitative data because it cannot be quantified
   or easily quantified, can distort the findings. For an example, see the response under
   Finding 1 to the subheading, "Use of Staffing Resources," paragraph 4.
Hawai`i SBDC Network Response
To Draft Audit Report No. 8-7-F-004




                           RESPONSES TO INTRODUCTION


A. Background (Draft Audit Report, p. 1)

   1. The Draft Audit Report states: "Five of the HSBDC's 15 employees are counselors . . .
   ." (DAR, p. 1, para. 4)

      a. This statement is inaccurate. In 1995, there were 4.5 full-time equivalent (FTE)
      counselors out of a total of 11.0 FTE SBDC-only funded positions. Therefore, the
      counselors represented 41.1% of total employees, not the 33.00% claimed.

      b. In 1996, there were 4.1 FTE counselors out of a total of 13.5 FTE SBDC-only
      funded positions. Therefore, the counselors represented 30.3% of total employees.
      However, the 3.0 FTE positions in the Business Research Library are client-service
      positions analogous to counselors, and should be included in this statistic in order to
      fully convey the Hawai`i SBDC Network's program delivery to clients. When
      included, there were 7.1 FTE client-service positions out of a total of 13.5 FTE SBDC-
      only funded positions, and the client-service positions represented 52.6% of total
      employees, not the 33.0% claimed.

   2. The Draft Audit Report states: "One counselor position, 50 percent of two other
   counselor positions, and 30 percent of an administrative assistant position were funded by
   the [RETA-H] grant." (DAR, p. 1, para. 5)

      a. This statement is inaccurate. In 1995, 3.7 FTE positions were funded through
      RETA-H (1.4 FTE counselor positions, 0.3 FTE administrative positions, and 2.0 FTE
      secretarial positions), not the 2.3 FTE claimed in the Draft Audit Report.

      b. In 1996, 3.5 FTE positions were funded through RETA-H (1.9 FTE counselor
      positions, 0.3 FTE administrative positions, and 1.3 FTE secretarial positions), not the
      2.3 FTE claimed in the Draft Audit Report.


B. Audit Objectives and Scope (DAR, p. 1)

   1. The Draft Audit Report states: "The objectives of the audit were to determine whether
   (i) resources were effectively used to provide counseling assistance to the small business
Hawai`i SBDC Network Response
To Draft Audit Report No. 8-7-F-004


   community . . . ." (DAR, p. 1, para. 6)
      a. This objective is too narrowly drawn to be an effective measure of an SBDC
      Program, and because it is so narrowly drawn the consequent evaluation leads to
      misperceptions about client-service delivery by the Hawai`i SBDC Network. Note the
      following statements from the SBDC Program's defining documents regarding the
      mission, objectives, and purpose of SBDC state/region programs:

          "Objective. The SBDC Program creates a broad-based system of assistance
          for the small business community by linking the resources of Federal, State
          and local governments with the resources of the educational community and
          the private sector." (13 CFR 130.100)

          "Purpose: The SBDC Program is designed to provide high quality business
          and economic development assistance to small businesses and prospective
          small businesses . . . in order to promote growth, expansion, innovation,
          increased productivity and management improvement." (SBA. Small
          Business Development Center Program Announcement, March 1997, p. 2)

          "Program Objectives: The overall objective of the SBDC Program is to
          leverage Federal dollars and resources with those of the state, the
          educational community, and the private sector to:

             (A) Strengthen the small business community;

             (B) Contribute to the economic growth of the communities served;

             (C) Make assistance available to more small businesses than is now
             possible with present Federal resources; and

             (D) Create a broader based delivery system to the small business
             community."

          (SBA. Small Business Development Center Program Announcement, March
          1997, pp. 2-3)

          The intent of these statements is clearly to define a program of broadly based
      economic development activity. Nowhere in these statements is counseling put forth
      as a higher priority than other types of assistance. In fact, counseling is not mentioned
      in the purpose or objectives of the SBDC Program. When counseling is referred to, it
      is but one of nine activities mentioned as services provided by an SBDC, and those
Hawai`i SBDC Network Response
To Draft Audit Report No. 8-7-F-004


      nine services are neither prioritized nor meant to be inclusive. Note the following:
   "SBDC Services: Services provided by a Small Business Development

   Center shall include, but not be limited to:


       (A) Furnishing one-to-one individual counseling to small businesses;

       (B) Assisting in technology transfer, research, and development,
       including applied research . . . .

       (C) Maintaining current information concerning Federal, State, and
       local regulations that affect small businesses and counsel small
       businesses on methods of compliance. . . .

       (D) Coordinating and conducting research into technical and general
       small business problems for which there are no ready solutions.

       (E) Providing and maintaining a comprehensive library that contains
       current information and statistical data needed by small businesses;

       (F) Maintaining a working relationship and open communications
       with the financial and investment communities, legal associations,
       local and regional private consultants, and local and regional small
       business groups and associations in order to help address the various
       needs of the small business community;

       (G) Conducting in-depth surveys for local small business groups in
       order to develop general information regarding the local economy and
       general small business strengths and weaknesses in the locality;

       (H) Maintaining lists of local and regional private consultants to
       whom small businesses can be referred; and

       (I) Utilizing and compensating qualified small business vendors . . .
       to provide services to small businesses.

   (SBA. Small Business Development Center Program Announcement,

   March 1997, pp. 5-6)


    Counseling is one tactic among others--such as advocacy, research, and training­
-for fulfilling the purposes and objectives of the SBDC Program. Research is
referred to in the above defined SBDC services; training is specifically provided for
in the Cooperative Agreement with set negotiated goals approved by the SBA; and
the SOP 60 16 states regarding advocacy: "SBDC's also act in an advocacy role to
promote local small business interests." (SOP 60 16, p. 5)

b. The question underlying the auditors' stated objective is, presumably, the
Hawai`i SBDC Network Response
To Draft Audit Report No. 8-7-F-004


      definition of the appropriate amount of counseling. No document provided to
      state/regional SBDCs states what constitutes an appropriate level of counseling.
      Rather, the Program Announcement provides that State Directors will negotiate the
      proposal with the SBA District Office, including goals for counseling, but as well for
      training. It further provides that the Office of SBDCs is responsible for "conducting
      the final review of the proposal programmatically and financially" (SBA. Small
      Business Development Center Program Announcement, March 1997, pp. 5-6) and
      "shall determine acceptability of SBDC proposals" (Notice of Award, page 4). With
      the issuance of the Notice of Award, there exists a Cooperative Agreement between
      the SBA and the host institution binding the state/regional SBDC to various
      provisions, including the negotiated goals for counseling. The appropriate level of
      counseling and the appropriate criterion for judgment of counseling, then, is that
      level negotiated with the SBA District Office and approved by the SBA Office of
      SBDCs. Regarding the level of achievement of the Hawai`i SBDC Network, the
      Draft Audit Report states: "We [the auditors] noted the number of [counseling] cases
      serviced met established goals . . . ." (DAR, p. 4, para. 1)

      c. The reason that counseling goals are established in negotiations between the State
      Director of an SBDC and the SBA District Office, rather than being established at
      the Central Office of the SBA, is that a hallmark of the SBDC Program since 1985
      has been that local conditions and needs at the state level should determine the
      strategy of an SBDC Program, including the balance and mix of advocacy,
      counseling, research, and training tactics. The SBA's SOP 60 16 states: "SBDC
      services shall be tailored as closely as possible to meet the local needs of small
      businesses and potential small business owners." (SOP 60 16, p. 12) (Emphasis
      added)

      d. Since the SBDC Program consists of much more than counseling, an audit
      objective that focuses on counseling alone is too narrowly drawn and will not
      produce an evaluation that is reflective of a particular SBDC Program's
      accomplishments or failures and, in fact, may--as in the case of the Draft Audit
      Report on the Hawai`i SBDC Network--distort the effectiveness of the program. In
      effect, the auditors have failed to understand the program and have departed from
      the recommendations of the GAO "Yellow Book," which states: "Auditors should
      obtain an understanding of the program to be audited to help assess . . . the
      significance of possible audit objectives and the feasibility of achieving them."
      (Comptroller General of the United States, GAO. Government Auditing Standards.
      1994 rev. para. 6.9).
      e. A properly drawn objective would have been one that measured the effectiveness
      of all the tactics used--advocacy, counseling, research, training, and others--to
      achieve the negotiated goals and fulfill the strategy of the SBDC, given the adequacy
      of the strategy measured against the local conditions and needs of small businesses
      in the state. As this Response will show, such an objective would have produced a
      positive finding.


                                        2

Hawai`i SBDC Network Response
To Draft Audit Report No. 8-7-F-004



      f. And, if the auditors were to claim that it was not possible for them to create a
      properly drawn objective, then as the GAO "Yellow Book" recommends: "To
      preclude misunderstanding in cases where the objectives are particularly limited and
      broader objectives can be inferred, it may be necessary to state objectives that were
      not pursued." (Comptroller General of the United States, GAO. Government
      Auditing Standards. 1994 rev. para. 7.13)




                                        3

Hawai`i SBDC Network Response
To Draft Audit Report No. 8-7-F-004



                         RESPONSES TO RESULTS OF AUDIT


Finding 1:	   Counseling Services Could Be Increased by Reallocating Staffing
              Resources (DAR, p. 3) "Counseling services average only 15.6 percent of
              the total staff hours available because a disproportionate amount of staffing
              resources were devoted to non-counseling services, such as secretarial and
              administrative duties. Counseling services could be increased by reallocating
              staffing resources." (DAR, Summary, p .i)

   1. Finding 1, as stated in the bold type above, is of course true. In fact, it is a truism that
   could be stated about any state/regional SBDC. The question, surely, is not whether
   counseling services could be increased by reallocating staffing resources, but whether
   they should be. The Hawai`i SBDC Network (a) disagrees that counseling services
   should be increased by reallocating staffing resources and (b) disagrees that counseling
   services are disproportionate when based on an appropriate criterion.

   2. Finding 1 does not establish materiality in the arguments and data presented in
   support of the Finding. Counseling goals, which are negotiated with the SBA District
   Office and approved by the SBA Office of the SBDCs, were met (DAR, p. 4, para. 1).
   There are no other goals or standards, and the auditors have cited none. The negotiated
   goals, which are incorporated into the Cooperative Agreement, are the only appropriate
   criterion for judgment. The GAO "Yellow Book" states: "In selecting criteria, auditors
   have a responsibility to use criteria that are . . . relevant to the matters being audited."
   (Comptroller General of the United States, GAO. Government Auditing Standards.
   1994 rev. para. 6.11)

   3. To establish that the Hawai`i SBDC Network's counseling hours are too low, which is
   the claim of the arguments and data presented by the auditors in support of Finding 1,
   requires in the absence of unmet goals that either (a) the other three primary tactics-­
   advocacy, research, and training--be shown to be too high given the needs of the State
   of Hawai`i and the resources available to the Hawai`i SBDC Network or (b) total client
   service hours are too low given available resources or (c) the mix and balance of service
   tactics are inappropriate for the State of Hawai`i. This has not been done nor addressed
   by the auditors. Nor, have the auditors established (a) the SBA was remiss in approving
   the goals or (b) the process of negotiating goals established by the SBA in 1985 is
   improper.

   4. Therefore, the Hawai`i SBDC Network is in disagreement with Finding 1. Note the
   following responses to the auditors' detailed analysis. These responses, we believe, will
   show that the audit has not fulfilled one of an audit's basic premises as stated in the
   GAO "Yellow Book": "Performance auditing contributes to providing accountability . .
   . in order to provide information to improve public accountability and facilitate decision­


                                            4

Hawai`i SBDC Network Response
To Draft Audit Report No. 8-7-F-004


   making by parties with responsibility to oversee or initiate corrective action."
   (Comptroller General of the United States, GAO. Government Auditing Standards.
   1994 rev. para. 1.13.h) We believe the finding is not only flawed, but distorts the
   performance of the Hawai`i SBDC Network and, therefore, cannot improve public
   accountability or facilitate proper decision-making.

   Program Delivery to the Small Business Community (DAR, p. 3, para. 3)

      1. The Draft Audit Report states: "The HSBDC considers counseling the principal
      effort of its core program." (DAR, p. 3, para. 3)

          a. While the Hawai`i SBDC Network does consider counseling to be an
          important effort of its core program, it is not the only effort. The Mission
          Statement of the Hawai`i SBDC Network states: "We are a statewide
          organization whose mission is to stimulate the economy and help individuals and
          the broader community, through counseling, training, research and other
          activities." (Strategic Plan: 1996 - 2001, p. 5) Counseling is referred to as one
          among a number of core competencies.

          b. The State Director has defined the tactics for achieving the SBDC Program's
          purpose and objectives to be advocacy, counseling, research, and training.

      2. The Draft Audit Report states: "SOP 60 16 states that SBDCs shall emphasize
      providing in-depth, high-quality assistance to small business owners or prospective
      small business owners." (SOP 60 16, p. 13) (DAR, p. 3, para. 3)

          a. The above quoted statement in the SOP 60 16 is immediately preceded by the
          following one: "Primary services to be provided shall include, but not be limited
          to, management and technical assistance through counseling and training. (SOP
          60 16, p. 12) While the SOP 60 16 indicates counseling assistance is to be
          emphasized, which it is in the Hawai`i SBDC Program, it as clearly indicates
          training and advocacy (SOP 60 16, p. 5) and other tactics are to be used as well
          in order to achieve the purpose and objectives of the SBDC Program.

          b. The word assistance is only rarely used in the SOP 60 16, 13 CFR 130, the
          Program Announcement, or the Notice of Award as a synonym for the word
          counseling. It is far more commonly used as a much broader term encompassing
          all services offered by SBDCs.

          c. It should also be pointed out that the SOP 60 16 is not the best evidence. It
          was written in 1985, whereas 13 CFR 130 was adopted in 1995 and both the
          Program Announcement and the Notice of Award are revised annually. More
          importantly, the SOP 60 16 states: "[T]hese guidelines do not have the effect of
          regulations." (SOP 60 16, p. 4) Nor, do they have the effect of a contract such


                                         5

Hawai`i SBDC Network Response
To Draft Audit Report No. 8-7-F-004


          as the Cooperative Agreement. There is no statement in these latter definitions of
          the SBDC Program that indicates counseling should be given priority over other
          client services.

   Use of Staffing Resources (DAR, p. 3)

      1. The Draft Audit Report states: "The HSBDC dedicated over 80 percent of its total
      staffing resources to non-counseling functions." (DAR, p. 3, para. 4)

          a. This statement is damning only if counseling is given primacy over all other
          types of economic development activities. As shown above, neither the national
          SBDC Program's defining documents nor the implementing ones of the Hawai`i
          SBDC Network support that contention.

          b. If staffing positions devoted to all economic development activities (i.e.,
          advocacy, counseling, research, and training) are considered, then 52.6% and
          52.4% of all available staffing positions were client service positions devoted to
          economic development activities in 1995 and 1996, respectively. Therefore, the
          Hawai`i SBDC Network dedicated only 47.4% and 47.6%, respectively, to non-
          client service positions, not over 80% as might be inferred from the auditors'
          comments by third party users of this information.

      2. The Draft Audit Report states: "Our analysis . . . showed that HSBDC's direct
      counseling hours totaled only 14.8% and 16.5% of the total available hours in 1995
      and 1996, respectively." (DAR, p. 3, para. 4)

          a. These figures are in error. The Hawai`i SBDC Network's analysis indicates
          that direct counseling hours of positions were 20.6% and 18.9% of all positions
          in 1995 and 1996, respectively. This error may flow from the ones made in the
          Draft Audit Report's computing of the number of FTEs in the RETA-H Program
          (see this Response, para. A.2 Background).

      3. The Draft Audit Report states: "Furthermore, a September 1997 programmatic
      review conducted by the Program Operations and Liaison staff of the Office of the
      Associate Administrator, Small Business Development Centers, showed that the
      HSBDC ranked 55th out of 57 SBDCs in counseling performed." (DAR, p. 3, para.
      4)
          a. Analysis of this statement is difficult to perform since the SBA's Office of the
          SBDCs has refused, despite explicit requests, to provide the Hawai`i SBDC
          Network with either (i) a copy of the September 1997 Program Review (or an
          earlier September 1994 Program Review) or (ii) a copy of the comparison which
          an examiner of the Office of SBDCs purportedly put together and which is the
          basis for the above claim. Nevertheless, some statements can be made about this
          comparison:


                                         6

Hawai`i SBDC Network Response
To Draft Audit Report No. 8-7-F-004



             i. The statistics upon which the comparison-ranking are based are not
             comparable. While state/regional SBDCs maintain consistent definitions for
             statistical reporting purposes internally within their states and regions, these
             definitions are not consistent among the state/regional SBDCs. Some include
             travel time, some may not; some include secretarial prep time, some do not;
             and some discount for multiple counselors at a client/counselor meeting,
             some do not. Any statistics of this type, therefore, must be used with caution.
             Note the following two factors, as well--both of which contribute to the non-
             comparability of the statistics.

             ii. Counseling hours are a function, in significant part, of state SBDC
             strategy to meet local needs and situations. Therefore, a comparison ranking
             of counseling alone, while of some interest, should not be confused with nor
             by itself considered as evidence of the effective use of a Program's resources.
             It is conceivable under the SBDC Program that a state/region SBDC last in
             counseling hours is nonetheless effectively using its resources because of
             results achieved with other tactics in the arsenal of SBDC services. It is also
             conceivable that a state ranking first in counseling hours is ineffectively using
             its resources because one available tactic is emphasized to the exclusion of all
             others and, thus, the needs of the state's small businesses are not met.

             iii. For small states, there exist dis-economies of scale. For instance, larger
             states frequently hire training directors to handle all training; whereas smaller
             states must assign training to the same individuals charged with performing
             counseling. Larger states frequently hire counselors who have no other
             significant duties and counsel 100% of their time; whereas smaller states
             must commonly assign many other duties to their counselors, such as
             advocacy, training, and administration. And, larger states defray
             administrative positions and costs over far more positions than smaller states.

              iv. There is no indication that this comparison-ranking of counseling hours is
              adjusted for population. If it is not, then it reflects little more than that
              Hawai`i is among the smaller states in terms of population.
          b. Based upon the statistics for state/regional SBDC counseling hours published
          on the Internet by the SBA, the claim that "the HSBDC ranked 55th out of 57
          SBDCs in counseling performed" is inaccurate. Note the following:

             i. Counseling Hours. Using the statistics published for Federal fiscal year
             10/01/95 - 9/30/96, Hawai`i ranked 51st out of 57 SBDCs in counseling
             hours, not 55th out of 57 SBDCs.

                Using the most recent statistics published by the SBA and available to the
             auditors, the Hawai`i SBDC Network ranked 46th out of 54 SBDCs in the


                                         7

Hawai`i SBDC Network Response
To Draft Audit Report No. 8-7-F-004


             number of counseling hours, not 55th out of 57. (Published by the SBA at
             //www.sba.gov/sbdc/intra/ for the nine-month period from 10/01/96 through
             6/30/97) Only 54 SBDCs were reported in these statistics.

             ii. Counseling Hours Adjusted for Population. Using the same statistics for
             the period of 10/01/95 - 9/30/96 and adjusting for population (U.S. Bureau of
             the Census), the Hawai`i SBDC Network ranked 46th out of 54 SBDCs in the
             number of counseling hours divided by the state population. (The difference
             between 54 and 57 SBDCs occurs in this statistic because the State of Texas
             is divided into regions. Since the Hawai`i SBDC Network does not have
             immediate access to statistics for the separate regions of Texas, we have
             treated the regions as if a single state.) (Published by the ASBDC Research
             Network at http://www.smallbiz.suny.edu.)


                For the more recent nine-month period of 10/01/96 - 6/30/97 and
             adjusting for population, the Hawai`i SBDC Network ranked 39th out of 54
             SBDCs. Ranking below Hawai`i's 39th place are states such as Arkansas
             (46), Arizona (48), California (52), Florida (51), Illinois (40), Indiana (47),
             Nevada (49), and New Jersey (50).

             iii. Training Hours. In training hours delivered, the other area in which
             SBDCs report hours to the SBA, the Hawai`i SBDC Network ranked 33rd out
             of 54 SBDCs during the period of 10/01/95 - 9/30/96 in hours of training
             delivered.

             iv. Training Hours Adjusted for Population. In training hours adjusted for
             population, the Hawai`i SBDC Network ranked 14th out of 54 SBDCs during
             the period of 10/01/95 - 9/30/96.

             v. Counseling + Training Hours / by Population. If counseling hours and
             training hours are added and the sum is divided by population, then the
             Hawai`i SBDC Network ranked 19th out of 54 SBDCs during the period of
             10/01/95 - 9/30/96. This counseling-training hours statistic, while not ideal,
             does provide a productivity comparison of state/regional SBDCs that
             accounts for differences in strategies based upon local differences among the
             states/regions. If one is attempting to judge productivity, it is arguably one of
             the best measures available, given the statistics currently collected by the
             SBA. Ranking below Hawai`i at 19th place are states such as Arkansas (20),
             Connecticut (25), Florida (33), Indiana (45), Maryland (46), Massachusetts
             (41), Missouri (36), New York (26), North Carolina (49), Pennsylvania (21),
             Rhode Island (34), and Washington (27).

                 The following graph illustrates the number of states ranking below the


                                         8

Hawai`i SBDC Network Response
To Draft Audit Report No. 8-7-F-004




                                                             HOURS OF CLIENT SERVICE ACTIVITY




                  No. of states ranking below Hawai`i
                                                                  Adjusted for Population (U.S. Census)


                                                        50

                                                        40

                                                        30

                                                        20

                                                        10

                                                        0
                                                             Counseling               Training            Coun.+Train.
                                                                                 10/1/95 - 9/30/96




             Hawai`i SBDC Network in the counseling-training hours statistic.




          c. In using the statistic from the September 1997 programmatic review, the
          auditors appear to have departed from the recommendations of the GAO "Yellow
          Book," which states: "If auditors intend to rely on the work of other auditors,
          they should perform procedures that provide a sufficient basis for that reliance."
          (6.15) "Auditors face similar considerations when relying on the work of
          nonauditors . . . ." (6.16) (Comptroller General of the United States, GAO.
          Government Auditing Standards. 1994 rev. para. 6.15 and 6.16) The GAO
          "Yellow Book" further states:


                                                                            9

Hawai`i SBDC Network Response
To Draft Audit Report No. 8-7-F-004



             "When the auditors' tests of data disclose errors in the data, or when they are
             unable to obtain sufficient, competent, and relevant evidence about the
             validity and reliability of the data, they may find it necessary to

             a. seek evidence from other sources,

             b. redefine the audit's objectives to eliminate the need to use the data, or

             c. use the data, but clearly indicate in their report the data's limitations and
             refrain from making unwarranted conclusions or recommendations."

              (Comptroller General of the United States, GAO. Government Auditing
             Standards. 1994 rev. para. 6.59)

      4. The Draft Audit Report provides a table entitled "Percent of Direct Counseling
      Hours Compared to Total Hours Available" (p. 4).

          a. The table is conceptually flawed. Rather than comparing direct counseling
          hours to non-counseling hours, which produces a distorted picture of the Hawai`i
          SBDC Network's use of resources by isolating counseling from the whole of
          client services delivered, the table should in fairness present a comparison of
          client service hours to non-client service hours. This was not done, presumably,
          because: "The time dedicated to training, advocacy, and administration could not
          be evaluated because the hours spent performing these functions were not
          recorded separately" (DAR, p. 4, para. 1). However, it is less than accurate to
          claim that "the time dedicated to training, advocacy, and administration could not
          be evaluated . . . ." What would be a more accurate statement is that these
          functions could not be easily quantified "because the hours spent performing
          [them] were not recorded separately." For the lack of easy quantification, the
          Draft Audit Report presents a distorted picture of the Hawai`i SBDC Network's
          delivery of client services. Third-party users of this information may well as a
          result infer an inaccurate assessment.

          b. During the field audit, considerable time was spent by the Hawai`i SBDC
          Network staff working with the auditors to assess the contribution of training to
          productivity. Each training event for a two-year period (295 training events
          totalling 1,340 direct training hours) was examined. Based on this work, it is
          difficult to believe that an assessment of training activities relative to productivity
          could not have been made and included in the table.

      5. The Draft Audit Report states: "The State Director states that although the
      counseling hours were low . . . ." (DAR, p. 4, para. 1)



                                          10

Hawai`i SBDC Network Response
To Draft Audit Report No. 8-7-F-004


          a. The State Director does not concede the auditors' point that counseling hours
          are inappropriately low. On the contrary, the State Director believes (i) the
          counseling hours are appropriate, given the balance of advocacy, counseling,
          research, and training services, and (ii) the appropriate counseling criterion of
          SBA negotiated and approved case goals was met.

      6. The Draft Audit Report states: "The State Director stated . . . that start-up
      businesses were counselled through formal training sessions. . . . Although training
      is part of an SBDC's function, we [the auditors] do not believe training can be
      considered a substitute for counseling." (DAR, p. 4, para. 1)

          a. Many SBDCs, including the Hawai`i SBDC Network, focus some training
          events on reducing the need for low-level, repetitive counseling for individuals
          interested in starting a business. They do this in order to increase the efficient
          use of counseling resources by focusing them on high-level, unique counseling
          cases. In this sense, some training is a "substitute" for counseling in that it
          obviates the need for some counseling, but not that it is the same as counseling.
          The State Director's comments have been misunderstood.

          b. SBA Internet-published statistics confirm the Hawai`i SBDC Network's
          success in this strategy. Nationally, 70.0% of all counseling cases involve start­
          up businesses. In Hawai`i, it is only 42.3%. (Published by the SBA at
          //www.sba.gov/sbdc/intra/ for the nine-month period from 10/01/96 through
          6/30/97.) From this statistic, it may be reasonable to conclude that the Hawai`i
          SBDC Network's counseling is more efficient than that of many other
          states/regions.

          c. If on the other hand, the Hawai`i SBDC Network had not used this means to
          increase its efficiency, then presumably and ironically there may have been no
          finding since counseling hours would have been higher, if less efficient.

      7. The Draft Audit Report states: "We [the auditors] noted the number of cases
      serviced met established goals set by the HSBDC." (DAR, p. 4, para. 1) (Italics
      added)

          a. It is true that the Hawai`i SBDC Network has met its established goals.

          b. However, this statement is misleading and seems to reflect a misunderstanding
          by the auditors. Goals are not "set" by an SBDC. They are negotiated with the
          SBA District Office, approved by the Office of SBDCs, and incorporated into a
          Cooperative Agreement. The SOP 60 16 states:

             "Services shall be provided pursuant to a negotiated cooperative
             agreement with full participation of both parties. (SOP 60 16, p. 4)


                                         11

Hawai`i SBDC Network Response
To Draft Audit Report No. 8-7-F-004



             "The SBDC's (sic) have the responsibility and authority for: 1.
             Negotiating the annual Cooperative Agreement with the SBA . . . ."
             (SOP 60 16, p. 8)

   Actions Available To Increase Funds for Counseling (DAR, p. 4)

      1. The Draft Audit Report states: "Increased funding for counselors is needed
      because 34 percent of the total HSBDC cash match for calendar years 1995 and
      1996 was contractually encumbered to meet new requirements of the Business
      Research Library (BRL)." (DAR, p. 4, para. 2)

          a. This argument presumes (a) that counseling has primacy among client service
          tactics (which has been previously shown in this Response to not be the case)
          and (b) devoting 34% of the cash match (which is only 11.5% of the total
          Hawai`i SBDC Network funds in calendar years 1995 and 1996) to support
          another required client service tactic--that of research--is too high. There are no
          provisions or standards in 13 CFR 130, the Program Announcement, or the
          Notice of Award to support these presuppositions and, thus, no criteria upon
          which to base the judgment.

          b. And, the SBA District Office and the SBA Office of the SBDCs approved this
          strategy and division of funds when it accepted the Hawai`i SBDC Network's
          proposals for the years 1995 and 1996. The auditors have presented no evidence
          the SBA was remiss in approving the strategy.

          c. Two other points regarding this funding:

             i. In the Program Announcement's description of the nine SBDC services to
             be offered to clients, the Business Research Library Specialty Subcenter's
             activities directly impact five of the nine defined SBDC services to clients.
             (SBA. Small Business Development Center Program Announcement, March
             1997, pp. 5-6) The work the Business Research Library Specialty Subcenter
             does in delivering SBDC services is obviously central to the mission of the
             SBDC Program.

             ii. In addition to the Business Research Library Specialty Subcenter's
             contribution to the mission of the Hawai`i SBDC Network, the state funds
             supporting the BRL were used beginning in 1995 as match. As a result, the
             Hawai`i SBDC Network matched all available federal funds in 1995 and
             subsequently. In fact, 1995 was the first year since 1991 in which all federal
             funds were matched by the Hawai`i SBDC Network.

      2. The Draft Audit Report states: "Five of the 15 staff were secretarial positions that,


                                         12

Hawai`i SBDC Network Response
To Draft Audit Report No. 8-7-F-004


      in fiscal year 1996, accounted for 32.5 percent of the annual available staff hours . . .
      . The remaining ten staff positions consisted of five counselor, three administrative,
      and two research positions." (DAR, p. 4, para. 3)

          a. The figures above are incorrect. In fiscal year 1996, staff of the Hawai`i
          SBDC Network were distributed as follows:

                                        Percentage of                       Percentage of
             Position              FTEs Position Hours        Salary      Position Resources

             Secretarial           4.59     33.9%           $132,419           22.7%
             Counseling            4.45     32.9%            240,924           41.3%
             Administrative        1.50     11.1%             96,458           16.5%
             Research              3.00     22.2%            113,474           19.5%

                Total             13.54    100.0%           $583,275         100.0%

          b. While the secretarial positions, without further inspection, may appear high in
          number of positions, they are appropriate as a percentage of resources at 22.7%.
          Counseling and research positions, both client-service tactics, account for 60.8%
          of total staff funding resources in 1996.

          c. Additionally, there appears to be an assumption that secretarial positions do
          not contain elements of client service. In fact, they do. While secretaries in the
          Hawai`i SBDC Network primarily engage in administrative work and work to
          increase the efficiency of the counseling staff, secondarily they work directly
          with clients by making referrals, locating information, and helping clients to
          effectively work with resource centers at each of the subcenters and at the
          Business Research Library Specialty Subcenter.

      3. The Draft Audit Report states that by combining certain secretarial positions and
      reducing the number of secretarial positions by two, the cost of secretarial services
      could be reduced "by about $69,000 which could be used to pay the salaries of one
      full-time and one part-time counselor." (DAR, p. 5, para. 2)
          a. The underlying assumptions to this argument are that (a) 2.59 secretaries can
          do the work of 4.59 secretaries and/or (b) it is an effective use of resources for
          Center Directors to perform secretarial tasks. No evidence is presented to
          support these assumptions.

          b. The auditors were provided with a copy of a seven-page document entitled
          1996 Revised Budget Justification which states the justification for the layoff of
          the West Hawai`i island (Kona) circuit-rider. It addresses the effect of the
          reduction of two secretarial positions as follows:



                                          13

Hawai`i SBDC Network Response
To Draft Audit Report No. 8-7-F-004


             "To obtain a similar financial impact [to the layoff of the West
             Hawai`i circuit-rider position], it would be necessary to eliminate two
             secretarial positions. To do so would seriously decrease the efficiency
             of the Centers affected. In terms of negative impact upon the SBDC's
             clients, it is my [the State Director's] judgement that this action would
             cause considerably greater harm than the layoff of the business
             consultant for west Hawai`i because it would predictably lead (1) to
             decreased efficiency, effectiveness, and morale of Center Directors
             with a resulting decrease in client service and (2) to more costly
             service since Center Directors at higher salaries than secretaries would
             be forced to handle their own secretarial duties." (1996 Revised
             Budget Justification. 2/12/96, pp. 5-6)

          c. Neither evidence nor weight of expertise is presented by the auditors to
          counter this argument.

      4. The Draft Audit Report states that about $69,000 from reductions in secretarial
      positions could be used to pay the salaries of one full-time and one part-time
      counselor. (DAR, p. 5, para. 2)

          a. The savings from the two positions targeted for elimination in salary and
          fringe benefits would have been $54,311 in 1996 and $58,165 in 1997, not
          $69,000.

          b. The cost of a full-time counselor (including salary, fringe benefits, and travel
          costs for a circuit-rider position) would be approximately $64,700. (See 1996
          Revised Budget Justification. 2/12/96, p. 3.) Obviously, the savings of $58,165
          would not even support one counselor position at $64,700, let alone "one full-
          time and one part-time counselor."



   Counseling Service to the Kona Area (DAR, p. 5)

      1. The Draft Audit Report states: "In March 1996, as part of the outreach
      implementation strategy to expand counselor services on Oahu, the State Director
      terminated the most productive counselor position, the circuit rider counselor for the
      Kona area." (DAR, p. 5, para. 3)

          a. The statement that "the State Director terminated the most productive
          counselor position" is a tenuous claim. However, before exploring that issue
          further, it is important to clarify that the layoff was not made on the basis of
          productivity, nor could it have been. The factors involved are much more
          complicated than that, as was put forth in the document 1996 Revised Budget


                                         14

Hawai`i SBDC Network Response
To Draft Audit Report No. 8-7-F-004


          Justification and in a memorandum from the State Director to the auditors dated
          1/16/97. Therefore, even if the claim were substantiated, it has no import beyond
          being ironic and unfortunate in its necessity.

          b. However, the claim cannot be substantiated. As indicated previously in this
          Response, the auditors were provided with a copy of a seven-page document
          entitled 1996 Revised Budget Justification which states the justification for the
          layoff of the West Hawai`i Island (Kona) circuit-rider. It states in part:

               "Because of the 'circuit-rider' nature of this position wherein the consultant
               travels to the client rather than the client coming to the consultant, this
               position serves the fewest clients. Note the following:

                                                         Number of     Number of      Number
   of
                  Position            Location          1995 Clients Workshops
   Attendees

                  Center Director    Hilo, Hawai`i          262             47            683
                  Center Director    Honolulu               206             40            585
                  Center Director    Maui                   196             34            684
                  Center Director    Kaua`i                 182             36            881
                  Consultant         West Hawai`i           172             22            325
                  "

               (1996 Revised Budget Justification. 2/12/96, p. 5) (Italics added)

              Note also that the number of training events (workshops) and the number of
          attendees at those events is much lower than those of the other positions--11.8%
          lower in training events than the average of the next three highest and 50.1%
          lower in attendees than the next three highest (excluding in each instance the
          highest).

          c. The auditors' claim is based solely on a comparison of the number of
          counseling hours. If those hours are adjusted for travel time--travel time being
          negligible for all other positions--then the West Hawai`i circuit-rider position is
          seen to be less productive than claimed. See column "A" in the table below:

                                                 (A) No. of 1995           (B) No. of 1995
                                                 Counseling Hours        Counseling Hrs. Adj.
   for
               Position          Location        Adjusted for Travel    Adm.Duties &
   Advocacy



                                          15

Hawai`i SBDC Network Response
To Draft Audit Report No. 8-7-F-004


             Center Director    Hilo, Hawai`i        1,037                     1,037
             Center Director    Honolulu               544                       544
             Center Director    Maui                   729                       729
             Center Director    Kaua`i                 627                       627
             Consultant         West Hawai`i           897                       762

              However, the circuit-rider position, unlike the center director positions, has
          nearly no administrative duties, no supervisory duties, nor any significant
          outreach responsibilities. These duties represent approximately 15% - 20% of
          the center directors' time, which reduces the circuit-rider position's hours to 762
          (-15%) or 718 (-20%). See column "B" in the table above. If, then, the
          difference in training is also factored in, the claim that the position is the most
          productive is tenuous.

      2. The Draft Audit Report states: "This decline [in counseling hours due to the
      elimination of the circuit rider position] occurred during a period when local
      business and government officials reported that Kona was experiencing economic
      growth and many small businesses needed counseling services." (DAR, p. 5, para. 4)

          a. While local business and government officials may have reported that Kona
          was experiencing economic growth, the State of Hawai`i--and especially the
          Island of Hawai`i, including the western portion of the island--have been in the
          throes of a stagnant economy at recessionary levels since 1992. (See the Hawai`i
          Index of Leading Economic Indicators.) Nevertheless, it is certainly the case that
          Kona, like all areas of Hawai`i, has many small businesses needing advocacy,
          counseling, research, training, and other SBDC-type services.

      3. The Draft Audit Report states: "Implementation of the actions to increase
      counseling positions . . . should enable the HBDSC (sic) to assign a circuit rider to
      the Kona area without an increase in the present funding level. (p. 5, para. 5)

          a. This statement is not accurate as shown above in the discussion of the
          proposed savings and costs associated with adding a circuit-rider position in
          West Hawai`i Island.

          b. More importantly, the conjecture of the auditors begs the question of whether
          their proposed action would be a wise management decision. As stated above,
          neither evidence nor weight of expertise is presented by the auditors to counter
          the Hawai`i SBDC Network State Director's fully developed and presented
          argument which concludes that such a decision would be counter-productive and
          inappropriate and, thus, unwise in the setting of Hawai`i.

          c. In the State Director's memorandum of 1/16/97 to the auditors, he wrote:



                                         16

Hawai`i SBDC Network Response
To Draft Audit Report No. 8-7-F-004


             "The decision to eliminate the position in west Hawai`i is in part the
             result, even if unintended, of an SBA mandate concerning the re­
             allocation of resources to Honolulu. It would be a considerable irony
             to create through a recommendation another mandate to correct the
             first one and, thus, perhaps setting up another unintended consequence
             that has a detrimental effect on SBDC clients. (Memorandum from
             Darryl Mleynek, State Director, Hawai`i Small Business Development
             Center Network, to Garry L. Duncan, Audit Manager, Office of the
             Inspector General, U.S. Small Business Administration. 1/16/97. p.
             5)

   Kona Counseling Position and the Leeward Subcenter (DAR, p. 6)

      1. The Draft Audit Report states: "The termination of the Kona counselor position
      allowed the HSBDC to assign a second counselor to a new sub-center in Leeward,
      Oahu." (DAR, p. 6, para. 1)

          a. The auditors have reversed the sequence of events, and their conclusion is thus
          misleading. The second counselor position on O`ahu, in an agreement between
          the Hawai`i SBDC Network and the SBA referred to as the Outreach Strategy,
          was committed to by the SBA's Office of SBDCs on 3/20/95 in a letter signed by
          Johnnie L. Albertson, Associate Administrator, following an exchange of letters
          and phone calls among her, Cassandra M. Pulley, at that time the Deputy
          Administrator of the SBA, and the State Director.




          In that letter, Ms. Albertson stated:

             "I fully support your proposal to add two [her emphasis] consultants
             to the Honolulu subcenter thereby placing additional resources where
             the majority of the Islands' small businesses are located. I encourage
             you to fill both of these positions as expeditiously as possible.

             ". . . I do believe that you have formed a basis for resolving many of
             the concerns that the Agency has had with regard to Hawaii's SBDC.
             We will be most interested in seeing the results of your efforts . . . ."

              The first of these two new counselor positions, which would be the second
          position on O`ahu, was required by the agreement with the SBA to be in place no
          later than 12/31/95. The search for a counselor began on 7/25/95, a counselor
          was hired on 11/16/95, and began working on 12/11/95. The decision to lay off
          the West Hawai`i circuit-rider was made in early February, 1996, and not


                                         17

Hawai`i SBDC Network Response
To Draft Audit Report No. 8-7-F-004


          finalized until 2/12/96. Layoff notice was given on 2/15/96 and termination
          occurred on 3/14/96.

              In the sequence of events, then, the most significant dates are 3/20/95 when
          the commitment by the SBA to hire a second counselor on O`ahu was made and
          2/12/96 when the layoff decision was finalized. No termination of the West
          Hawai`i position was envisioned by the State Director of the Hawai`i SBDC
          Network on 3/20/95 or any date prior to that, nor up until shortly before the
          2/12/96 date. Therefore, the assignment of "a second counselor" on O`ahu could
          not have been caused by the"termination of the Kona counselor position." (DAR,
          p. 6, para. 1)

          b. The statement of the auditors is that the layoff was due to the decision of the
          State Director to hire a second O`ahu consultant. This conjecture was responded
          to by the State Director in a letter to the auditors dated 7/21/97, which addressed
          that very question as then posed to him by the auditors. He stated in part:

             "The Outreach Strategy, which was a joint strategy developed by me
             [the State Director] with the concurrence of Andrew Poepoe [SBA
             Honolulu District Director] in response to Ms. Cassandra Pulley's
             request, consisted of what we believed to be the minimal commitment
             acceptable to the Washington office of the SBA that would resolve the
             issue over the location of the Lead Center. In that sense, I believe that
             the strategy to add a second consultant in Honolulu, although perhaps
             technically developed by me, was in fact mandated by the Washington
             office of the SBA. If the decision had been mine alone, I would not
             have added a second consultant in Honolulu while the budget for the
             Hawai`i SBDC Network was undergoing reductions." (Letter from
             Darryl Mleynek, State Director, Hawai`i Small Business Development
             Center Network, to Leon R. Cheney, Auditor, Office of the Inspector
             General, U.S. Small Business Administration. 7/21/97 pp. 3-4.)

              The Hawai`i SBDC Network State Director understood the complexity of this
          local issue. Nevertheless, the SBA Office of SBDCs expected the second
          position on O`ahu to be created even if it meant moving "resources" from
          elsewhere in Hawai`i. The essence of their argument and expectations is
          contained in Ms. Albertson's phrase, "placing additional resources where the
          majority of the Islands' small businesses are located," and her position is
          revealed in the statement, "I encourage you to fill both of these positions as
          expeditiously as possible." An examination of the correspondence will
          substantiate that the State Director fought hard for his views in what became a
          contentious public issue, but was able only to deflect even worse consequences
          to the Hawai`i SBDC Network by effecting this compromise solution of hiring a
          second counselor on O`ahu.


                                         18

Hawai`i SBDC Network Response
To Draft Audit Report No. 8-7-F-004



      2. The Draft Audit Report concludes the next presentation of the auditors'
      observations by stating: "Based on our observations, the new Leeward sub-center
      [satellite office] neither increased the service area nor increased access to available
      services. . . . Since the Leeward sub-center did not substantially expand services to
      new clients, the State Director should consider closing the sub-center and using
      those resources to meet higher priority counseling requirements. (DAR, p. 6, para. 2)

          a. The purpose in opening the Leeward Satellite Office, as mandated by the SBA
          Office of SBDCs, was neither to expand the service area nor to increase access to
          services on O`ahu, as the auditors have incorrectly assumed, but rather was to
          increase the delivery on O`ahu of SBDC services, such as counseling. It has
          achieved that. Total client counseling hours on O`ahu in 1995 with one
          counselor were 544 hours and in 1996 with two counselors were 1,446 hours, an
          increase of 165.8% in counseling hours on O`ahu.

          b. The particular location on O`ahu for the second counselor position was

          determined by three factors:


             i. There existed no office space for a second counselor in the downtown
             Honolulu Business Information and Counseling Center (BICC) in which the
             first counselor was located.

             ii. The State Director believed, given that a second location was necessary,
             that a leeward location in the approximate area of Waipahu would reach
             some percentage of clients who would not otherwise travel to a downtown
             location. Individuals familiar with local attitudes will understand that some
             small business people, even though the distance is only "12 freeway miles
             and about 20 minutes away," (DAR, p. 6, para. 1) will not venture into
             downtown Honolulu.

             iii. Since the space for the Leeward Satellite Office was donated by the Bank
             of America, there were no additional costs associated with opening a second
             office in Waipahu, as opposed to having two counselors in one office in
             downtown Honolulu.

          c. The auditors have privileged Kona over other areas of the State of Hawai`i.
          They refer to "closing the [Leeward] sub-center and using those resources to
          meet higher priority counseling requirements," presumably those in West
          Hawai`i (Kona). Yet, nowhere do they present evidence or weight of expertise to
          establish the need in Hawai`i for a higher priority of counseling to West Hawai`i.
          While a few residents of the Kona area have expressed their disapproval of the
          Hawai`i SBDC Network reducing service to that area, protests are political. The
          auditors may not understand that reduction of existing service to any area--even


                                        19

Hawai`i SBDC Network Response
To Draft Audit Report No. 8-7-F-004


          that in leeward O`ahu--will produce similar political complaints.

          d. For the auditors to suggest that the State Director close the Leeward Satellite
          Office is disingenuous since they know it means violating an agreement between
          the Hawai`i SBDC Network and the SBA Office of SBDCs. The GAO "Yellow
          Book" states: "Recommendations are most constructive when they . . . are
          addressed to parties that have the authority to act [and] are feasible . . . ."
          (Comptroller of the United States, GAO. Government Auditing Standards. 1994
          rev. para. 7.23)

   Recommendations: 1A. Submit a plan to increase counseling hours and reduce
   administrative time. (DAR, p. 6)

      1. The Hawai`i SBDC Network disagrees with the recommendation as stated,

      because the finding upon which it is based is without merit.


      2. Nevertheless, the Hawai`i SBDC Network will address the small business-based
      need in Hawai`i for greater client services in its annual revision of its strategic plan.

      3. The Hawai`i SBDC Network believes it is unwise and counter-productive to
      decrease administrative time and strongly opposes this part of the recommendation.

   Auditee's Conclusion:

      1. The evidence presented in support of Finding 1 is neither sufficient, competent
      nor relevant upon which to base the finding. "Sufficient, competent, and relevant
      evidence is to be obtained to afford a reasonable basis for the auditors' findings and
      conclusions." (Comptroller of the United States, GAO. Government Auditing
      Standards. 1994 rev., para. 6.46. See also para. 6.50) Furthermore, the objective to
      which the finding responds is too narrowly constructed, the finding lacks materiality,
      and the defining documents of the SBDC Program do not give primacy to counseling
      over other tactics and do not provide any standard or goal for counseling other than
      those goals negotiated annually with and approved by the SBA, goals which the
      auditors admit the Hawai`i SBDC Network has met or exceeded.

      2. Finding 1 should be withdrawn. The GAO "Yellow Book" states: "When the
      comments [by responsible officials of the audited program] oppose the report's
      findings, conclusions, or recommendations, and are not, in the auditors' opinion,
      valid, the auditors may choose to state their reasons for rejecting them. Conversely,
      the auditors should modify their report if they find the comments valid."
      (Comptroller of the United States, GAO. Government Auditing Standards. 1994
      rev., para. 7.42) (Italics added)




                                          20

Hawai`i SBDC Network Response
To Draft Audit Report No. 8-7-F-004




                                      21
Hawai`i SBDC Network Response
To Draft Audit Report No. 8-7-F-004


Finding 2:	   Program Funding from Private and Public Sectors. (DAR, p.7) "Funding
              stability could be improved by applying for funds available from private and
              local government entities. Increased funding would allow HSBDC to use its
              resources more effectively to provide counseling assistance to the small
              business community." (DAR, Summary, p. i)

   1. While the Hawai`i SBDC Network generally agrees with the concluding opinions
   expressed by the auditors in Finding 2, it disagrees that their remarks should be elevated
   to a finding due to lack of materiality, of appropriate criteria, and of evidence which is
   sufficient, competent, and relevant upon which to reasonably base a finding.
   Furthermore, the finding is not in response to an audit objective, and departs from the
   recommendations of the GAO "Yellow Book," which states: "[T]he elements needed
   for a finding depend entirely on the objectives of the audit." (Comptroller General of
   the United States, GAO. Government Auditing Standards. 1994 rev. para. 7.19)

   2. The Hawai`i SBDC Network agrees that it was vulnerable to UH Hilo funding
   fluctuations and that program delivery was consequently affected adversely. And, of
   course, additional funds from whatever source would reduce the adverse impact.

   3. The auditors omit mention of the SBA's efforts to also reduce funding for the SBDC
   Program during 1995 and 1996, although the SBA's failure in this objective mitigated
   most adverse effects to the Hawai`i SBDC Network. Nevertheless, increased funding
   from the SBA would also "allow HSBDC to use its resources more effectively to
   provide counseling assistance to the small business community." (DAR, Summary, p. i)

   4. For a finding to be credible, criteria need to be established against which to make
   judgements. "Criteria are the standards used to determine whether a program meets or
   exceeds expectations." (Comptroller of the United States, GAO. Government Auditing
   Standards. 1994 rev, para. 6.11) There are within the defining documents of the SBDC
   Program no imperatives, negotiated goals, standards, or requirements concerning fund­
   raising. Therefore, there are no appropriate criteria for a finding.

   5. The defining documents of the SBDC Program may make no reference to fund­
   raising because the costs of fund-raising are unallowable under OMB Circular A-110.
   "Costs of organized fund raising, including financial campaigns, endowment drives,
   solicitation of gifts and bequests, and similar expenses incurred solely to raise capital or
   obtain contributions, are unallowable." (OMB Circular A-21 J(22)(b))

   6. If there were SBA goals for fund-raising, the Hawai`i SBDC Network would meet
   them. During the current year, the Hawai`i SBDC Network has obtained commitments
   for the following funds in addition to those derived from the SBA grant and UH Hilo
   match:

     Amount 	       Contract Period         Source & Project


                                          22

Hawai`i SBDC Network Response
To Draft Audit Report No. 8-7-F-004



     $343,500    8/01/97 - 7/31/98         Department of Defense funds received through
the                                        USDA for administration of the RETA-H
Program6

     167,000     8/01/97 - 12/31/98        State Department of Business, Economic
Devlop­
                                           ment and Tourism funds for services to
recycling                                  and remanufacturing small businesses. Includes
                                           funds from the EPA.

      135,000    8/01/97 - 7/31/98	        Maui County funds for the Business Research
                                           Library.

       90,000    8/01/97 - 7/31/98	        State Legislature funds for the Business
                                           Research Library. Received through the Maui
                                           Economic Development Board by way of the
                                           High Technology Development Corporation,
                                           both 501(c)(3)s.

       18,100    8/01/97 - 7/31/98	        City & County of Honolulu, Department of
                                           Commerce and Social Resources funds for a
                                           training program.

     $753,600	                             Total Cash Funding

       a. The total cash funding of $753,600 represents 173.9% of the SBA federal funding
       for Hawai`i. If comparisons were made by the SBA of fund-raising, funds raised as
       a percentage of federal funds would be the logical comparison.

       b. In addition to this cash funding, the Hawai`i SBDC Network also receives
       substantial in-kind funding from the Bank of Hawaii and the Bank of America.

       c. To our knowledge, statistics are not tabulated and released concerning what other
       states have achieved in obtaining funding beyond the SBA grant and host institution
       matching funds, but few other states/regions would exceed this amount as a
       percentage of SBA federal funds.

       6
        This $343,500 in administrative funds are part of a 1997 grant for the RETA-H
Program of $4,763,889.        Previous grants in this Program administered by the Hawai`i
SBDC Network: $4,711,320 in 1996,                   $5,000,000 in 1995, and $905,280 in
1993 for a total of $15,380,489. No state/regional SBDC has              administered a
program this large, to the best of our knowledge.



                                         23

Hawai`i SBDC Network Response
To Draft Audit Report No. 8-7-F-004



   7. As the above list shows, the Hawai`i SBDC Network recognizes the advantages to
   raising additional funds.

   SBDC Program Objectives Are Important to the Business Community (DAR, p. 7)

      The Hawai`i SBDC Network agrees with the comments made by the auditors in this
      section. In fact, the Network understands that most of the officials referred to in this
      section praised the SBDC's accomplishments in Hawai`i to the auditors, as did the
      clients surveyed.

   Funding Reductions Resulted in a Proposed Outreach Strategy (DAR, p. 7)

      1. The Hawai`i SBDC Network agrees with the summary of events in this section,
      except for the last paragraph (DAR, p. 8, para. 1).

      2. It is noted that the auditors did not endorse the SBA's previous attempts to move
      the Hawai`i SBDC Network State Office (lead center) from Hilo to Honolulu, which
      we understand was an issue the auditors reviewed.

      3. The Draft Audit Report states: "On March 3, 1995, HSBDC proposed a
      compromise outreach strategy to increase program funding by raising funds from the
      public and private sectors and increasing staff by two additional counselors on
      Oahu." (DAR, p. 8, para. 1) (Italics added)

          a. While the compromise outreach strategy was technically proposed by the State
          Director of the Hawai`i SBDC Network, the proposal grew out of an expectation
          promoted by the SBA that such a proposal would resolve what had become a
          contentious public issue. For an extensive discussion of this issue, see the
          Response to Finding 1, "Kona Counseling Position and the Leeward Subcenter,"
          pages 26 - 29.

   Outreach Strategy Activity Not Fully Implemented (DAR, p. 8)

      The Draft Audit Report states: "[T]he State Director added a second counselor to
      Oahu by eliminating the Kona area counselor . . . ." (DAR, p. 8, para. 2)

          a. No evidence is presented by the auditors in support of this statement. To the
          contrary, the Hawai`i SBDC Network did not add a second counselor to O`ahu
          by eliminating the Kona area counselor. It would be fair to state, however, the
          West Hawai`i Island circuit-rider was laid off in part because of the
          consequences of an SBA-mandated agreement. For an extensive discussion of
          this point, see the Response to Finding 1, "Kona Counseling Position and the
          Leeward Subcenter," pages 26 - 29.


                                         24

Hawai`i SBDC Network Response
To Draft Audit Report No. 8-7-F-004



   Potential Fund Raising Efforts (DAR, p. 8)

      1. The Draft Audit Report states: "The HSBDC can avert reduced operations by
      increasing private and public fund raising."

          While this statement obviously rings true, it glosses over the full reality of fund­
          raising by SBDCs. Note the following points:

             i. When the federal government began to reduce funding to many business
             and social assistance programs, the competition for private and state funds
             increased dramatically.

             ii. Private and state funds, other than those from the host institution, are
             nearly always project-based. That is, the funds are encumbered for specific,
             defined projects and are not available for general operational purposes. This
             is precisely the point made by the auditors in their complaint about the
             funding for the Business Research Library Specialty Subcenter.

             iii. Private and state funds are short-term commitments--usually one year,
             occasionally two years.

             iv. The number of private sources for funding in a state as small as Hawai`i is
             quite limited.

             v. Frequently, private funding is limited to non-profit entities such as
             501(c)(3)s.

             vi. Private and state funds, when obtained, increase the administrative load
             for the SBDC.

          The effect of these realities in fund-raising is that private and state funding, other
          than from the host institution, may not increase an SBDC's stability significantly
          and may not avert reduced operations.

      2. The Draft Audit Report states: "The State Director stated he was unaware of the
      funding sources [Bank of Hawaii, First Hawaiian Bank, City and County of
      Honolulu Housing and Community Development Department] and would follow up
      on each lead." (DAR, p. 8, para. 5)

          a. The State Director has long been aware of these funding sources. Two of
          them--the Bank of Hawaii and First Hawaiian Bank--have representatives on the
          Hawai`i SBDC Network's State Advisory Board and the third--the City and
          County of Honolulu--has provided the Hawai`i SBDC Network with an $18,100


                                          25

Hawai`i SBDC Network Response
To Draft Audit Report No. 8-7-F-004


          grant earlier in this year.

          b. On 6/25/97 and 6/26/97, the State Director and SBA Project Officer met with
          representatives from First Hawaiian Bank and the Bank of Hawaii, respectively,
          to discuss future funding possibilities.

   Rationale for the Lack of Fund Raising Efforts (DAR, p. 8)

      1. The Draft Audit Report states: "The State Director said he had not attempted to
      raise funds from other sources, such as those mentioned above, because he lacked an
      Associate State Director and was reluctant to initiate fund raising efforts without the
      permission of the UH Hilo chancellor. As a subordinate of the chancellor, the State
      Director said he concentrated on program delivery and depended on the chancellor
      for fund raising." (DAR, pp. 8-9, para. 6)

          a. The State Director, since his appointment in 6/94, has actively sought to raise
          funds. He did comment to the auditors that the creation of an associate state
          director position would enhance his ability to raise funds, but he did not use the
          lack of such a position to create the impression that he did no fund-raising. The
          evidence is the funds raised--$753,600 in the current year. See the list above,
          page 32.

          b. The State Director did comment to the auditors that when he was first
          appointed, the Chancellor had not given approval for fund-raising by the Hawai`i
          SBDC Network because he saw the SBDC as a competitor for funds. At the
          request of the State Director, the Chancellor reversed this position in 1994. At
          no time has the State Director ever depended upon the chancellor for fund­
          raising.




   Recommendation: 2A. Implement SBA's recommendation to raise funds from
   private sector and local government entities with initial fund raising efforts
   directed toward the sources identified during the audit.

   This recommendation has long been in the process of being implemented, with the
   exception of the particular sources identified during the audit, and even those have been
   part of recent fund-raising efforts.

   Auditee's Conclusion:

      1. Finding 2 has a lack of materiality, appropriate criteria, and evidence which is
      sufficient, competent, and relevant upon which to base a finding.


                                         26

Hawai`i SBDC Network Response
To Draft Audit Report No. 8-7-F-004



      2. Finding 2 should be eliminated. The GAO "Yellow Book" states: "When the
      comments [by responsible officials of the audited program] oppose the report's
      findings, conclusions, or recommendations, and are not, in the auditors' opinion,
      valid, the auditors may choose to state their reasons for rejecting them. Conversely,
      the auditors should modify their report if they find the comments valid."
      (Comptroller of the United States, GAO. Government Auditing Standards. 1994
      rev., para. 7.42) (Italics added)

      3. The single, most important tactic to increase the stability of the Hawai`i SBDC
      Network's funding is to obtain full funding from the host institution. In a meeting on
      8/05/97, the President of the University of Hawai`i System committed the University
      to providing full match funding in the current year and to do this in the future
      through a line-item in the State budget. This major achievement was the result of a
      strategy coordinated with the SBA District Director to obtain support from major
      leaders in the State for full funding for the Hawai`i SBDC Network. Letters were
      sent and phone calls were made to the President of the University of Hawai`i and the
      Acting Senior Vice President and Chancellor of the University of Hawai`i at Hilo.
      This was followed by several meetings between the State Director and the UH Hilo
      Acting Chancellor in preparation for a final meeting at which the commitment for
      full match funding was made by the President. In addition to the State Director and
      the SBA District Director and Project Officer, the Program Manager from the Office
      of SBDCs was in attendance at this meeting and, in fact, served as a catalyst for the
      scheduling of the meeting.




                                        27

Hawai`i SBDC Network Response
To Draft Audit Report No. 8-7-F-004


Finding 3:	   Reporting and Approval Requirements. (DAR, p. 9) The reporting and
              approval requirements in the Cooperative Agreement were not always
              followed. Financial and performance reports were not prepared or were
              inaccurate and submitted late. Approval for contracts exceeding $5,000 was
              not obtained. The requirements were not complied with because the
              accounting agent did not detect data transfer and accounting system errors,
              and Notice of Award provisions were overlooked or misunderstood. (DAR, p.
              i)

   1. The Draft Audit Report states: "Financial and performance reports . . . were either not
   prepared or were inaccurate and untimely." (DAR, p. 9, para. 3)

      a. All performance reports were prepared and filed on time.

      b. All performance reports were accurate, although all performance reports failed to
      include a section on financial expenditures from a management perspective, which is
      required by the Notice of Award, but is not mentioned in the detailed outline for
      performance reports in the Program Announcement. The SBA Office of SBDCs, in
      seven years of oversight responsibility, never brought this omission to the attention
      of the Hawai`i SBDC Network.

      c. All financial reports were prepared and, other than final reports, were submitted
      on time.

      d. The Draft Audit Report statement should be worded more correctly to read:
      Financial and performance reports did not include some required information
      (indirect cost rate, program income use, financial expenditures from a management
      perspective), contained some incorrect reporting (program income and expense
      commingled with expenditures, indirect cost details), and final reports were not
      submitted on time." Otherwise, the auditors' comment is overly generalized and may
      be misperceived by third party users of this information.

Financial Status Reports (SF 269) (DAR, p. 9)

   1. The Draft Audit Report states: "The Financial Status Report for 1995 was not
   submitted timely, contained inaccurate financial data, and omitted program income
   expense information." (DAR, p. 9, para. 4)

      a. The Hawai`i SBDC Network concurs that the 1995 and 1996 final (but not
      quarterly) Financial Status reports were not submitted on time, and concurs that
      program income and expenses were inaccurately commingled with project expenses
      and indirect costs were inaccurately reported on the SF 269.

   2. The Draft Audit Report states: "SBA was not aware that by the end of 1996 over


                                         28

Hawai`i SBDC Network Response
To Draft Audit Report No. 8-7-F-004


   $68,000 in program income was available . . . ." (DAR, p. 9, para. 6)

      a. The SBA was surely aware that program income was available, since program
      income balances were reported annually in the Hawai`i SBDC Network proposal and
      quarterly in the Hawai`i SBDC Network training reports.

Performance Reports (DAR, p. 10)

   1. The Draft Audit Report states: "The Cooperative Agreement and 13 CFR
    130.820(c) required that semi-annual and annual performance reports be provided to
   SBA that showed actual versus budgeted financial expenditures by cost categories."
   (DAR, p. 9, para. 6)

      a. While semi-annual and annual performance reports were submitted on time,
      inadvertently the Hawai`i SBDC Network did not implement the requirement in the
      Notice of Award to submit actual versus budgeted financial expenditures by cost
      categories from a management perspective. Once this oversight was brought to the
      attention of the Hawai`i SBDC Network in the course of the audit, these reports were
      filed for 1995 and 1996 year-end as soon as possible, and will continue to be filed as
      required.

      b. While the Hawai`i SBDC Network recognizes its responsibility to conform to the
      requirements of the award, it also notes under Standard Provision 2 of the award
      titled DELINEATION OF SBA INVOLVEMENT, subparagraph b., that SBA
      involvement included responsibilities to ensure Hawai`i SBDC Network activities
      conform to the requirements of the law, the Program Announcement, and the
      Cooperative Agreement. During the previous seven years, the absence of the
      required data was not conveyed to the Hawai`i SBDC Network.

      c. Issues such as this could be largely avoided if a single source of regulations were
      maintained or if the Program Announcement sections on performance reports, which
      are extensive, were cross-referenced with sections on performance reports in the
      Notice of Award.




Approval of Consultant Contracts (DAR, p. 10)

   1. The Draft Audit Report states: "According to the terms of the Cooperative
   Agreement, HSBDC must obtain SBA approval before awarding contracts which are
   expected to exceed $5,000." (DAR, p. 10, para. 3)



                                        29

Hawai`i SBDC Network Response
To Draft Audit Report No. 8-7-F-004


      a. Since the implementation of OMB Circular A-110 (revised) in 1993, the
      procurement operations of the Hawai`i SBDC Network have been governed by these
      procurement standards. The requirement for prior approval of sole source contracts
      exceeding $5,000 is not a provision of Procurement Standards of the Circular. The
      Hawai`i SBDC Network overlooked this ambiguity between the Notices of Award
      provision of (4e.) and the governing OMB Circular A-110 Procurement Standards.
      In retrospect, the Hawai`i SBDC Network feels that it was in substantive compliance
      since one of the two reasonable interpretations flowing from Federal Uniform
      Administrative Requirements (A-110) as promulgated by the OMB on the one hand
      and the SBA Notice of Awards on the other was followed. As a matter of note, the
      provision recited in Provision 4 of the 1995 Notice of Award was changed beginning
      in 1996 and, therefore, does not appear to require prior notification of agreements
      exceeding $5,000.

      b. As a further matter of note, OMB Circular A-110, Subpart A, paragraph 3 states
      that its provisions govern unless different provisions are provided for by Federal
      statute. Paragraph 4 of this subpart states that agencies may apply more restrictive
      provisions if approved by OMB. We are unaware of the 1995 Notice of Award
      provision 4 having been provided for by statute or receiving approval of OMB.

      c. In conclusion, we acknowledge we were not in compliance with the Provision 4
      for the reasons stated above. However, the ambiguity between this provision and
      OMB Circular A-110 appeared to remain, until the prior approval provision in the
      SBA Notice of Award document was eliminated in 1996 and subsequently.

Recommendations (DAR, p. 10)

   3A. Ensure the University of Hawaii accounting agents take actions to submit
   timely data and correct the problem of commingling accounting data during data
   transfer.

      a. The Hawai`i SBDC Network has already taken steps to ensure timely submission
      by meeting on 9/30/97 with the SBA Project Officer, the Director of the University
      of Hawai`i Office of Research Services (ORS), and the UH ORS Fiscal Accounting
      Specialist to discuss removing barriers to timely submission of reports and related
      fiscal matters affecting the interface among the Hawai`i SBDC Network, the
      Research Corporation of the University of Hawai`i, and the University of Hawai`i
      Office of Research Services.

   3B. Report program income received and how it was used to further program
   objectives on SF 269 reports.

      a. The Hawai`i SBDC Network has complied with this recommendation since this
      compliance issue was raised by the auditors in May 1997. We appreciate the


                                        30

Hawai`i SBDC Network Response
To Draft Audit Report No. 8-7-F-004


      assistance provided by the auditors in supporting the suggestions made by the
      Hawai`i SBDC Network to the UH Office of Research Services regarding the
      specifics of this requirement.

   3C. Prepare and submit semi-annual and annual performance reports showing
   actual versus budgeted financial expenditures by cost categories in accordance
   with the Cooperative Agreement.

      a. The Hawai`i SBDC Network has complied with this recommendation since this
      compliance issue was raised by the auditors in May 1997.

   3D. Obtain SBA approval before awarding contracts in excess of $5,000.

      a. An ambiguity existed in FY 1995 and prior years, wherein the prior approval
      requirement in the Cooperative Agreement was outside the scope of OMB Circular
      A-110. SBA eliminated the prior approval requirement in FY 1996 and
      subsequently.




                                       31

Hawai`i SBDC Network Response
To Draft Audit Report No. 8-7-F-004


Finding 4:	   Indirect Costs and In-Kind Contributions. (DAR, p. 11) Indirect costs
              were overstated by $30,415 because correct indirect cost rates were not used
              and in-kind rents were not properly prorated. Conversely, the HSBDC did
              not claim allowable indirect costs of $35,408 for matching funds. Since
              unclaimed allowable costs offset the questioned costs, no refund is due.
              (DAR, p. i)

   Indirect Cost Rates (DAR, p. 11)

      1. The Draft Audit Report states: "[T]he HSBDC accounting agent used an incorrect
      rate to determine the indirect cost rate on Federal direct costs. The accounting agent
      should have classified HSBDC operations into on-campus and off-campus.
      Conversely, indirect costs of $35,408 were not claimed as matching funds." (DAR,
      p. 11, para. 3)

          a. No further sufficient, competent, and relevant information was included in this
          finding to enable a reader of the finding to understand the basis of the auditor's
          conclusion that an incorrect indirect cost rate was used (see para. 7.18 of the
          GAO Government Auditing Standards).

          b. The University of Hawai`i fiscal year cited in the Draft Audit Report is 1995.
          For that fiscal year and prior years, the University of Hawaii system-wide office
          negotiated indirect cost rates with the OMB-assigned cognizant Federal agency.
          Multiple rates were negotiated including, but not limited to on- and off-campus
          Sponsored Instruction and Training and on- and off-campus Other Sponsored
          Activities. Since inception, the HSBDC has applied the on-campus Sponsored
          Instruction and Training rate in all award applications and resultant post award
          financial reporting. The basis for this application and reporting was two-fold: (i)
          the predominant characteristics of the functions being performed (training,
          counseling, research, and advocacy) were determined to coincide with the
          definition of Sponsored Instruction and Training set forth in OMB Circular A-21
          and (ii) the principal setting of the Hawai`i SBDC Network State Office is
          located on-campus at the University of Hawai`i at Hilo.

          c. Based on recent discussions with the UH system-wide office responsible for
          Indirect Cost studies, it has been determined they inadvertently or otherwise
          coded the Hawai`i SBDC Network activities under Other Sponsored Activities.
          The Hawai`i SBDC Network is presently in discussions with this Indirect Cost
          studies group and the Central Accounting Office and has provided them with
          appropriate data demonstrating that the principal functions performed under the
          SBA Cooperative Agreement coincide with the definition of the Sponsored
          Instruction and Training function set forth in OMB Circular A-21. Amendments
          to correct the above inadvertency are in process to correct this coding to
          Sponsored Instruction and Training for 1997 and subsequent years.


                                         32

Hawai`i SBDC Network Response
To Draft Audit Report No. 8-7-F-004



In-Kind Rents - Honolulu (DAR, p. 12)

   1. The Draft Audit Report states: "OMB Circular A-21, paragraph C4, requires in-kind
   rent to be prorated among the benefiting institutions . . . . As a result of the over and
   under statements, questionable in-kind contributions for the office spaces totalled
   $15,332." (DAR, p. 12, para. 1)

      a. Although the Hawai`i SBDC Network questions sharing costs 50:50 with SCORE
      when they use space in the Leeward Satellite Office only one morning per week, the
      auditors' determination will be conformed to as a conservative proration of in-kind
      rental costs on O`ahu. We appreciate the detailed explanation provided by the
      auditors as to the proper proration and calculation of in-kind rental costs.

Unclaimed Costs (DAR, p. 12)

   1. The Draft Audit Report states: "The HSBDC did not claim $35,508 in allowable
   indirect costs attributed to the state matching direct costs . . . ." (DAR, p. 12, para. 2)

      a. The Hawai`i SBDC Network concurs that indirect costs were not claimed on UH
      Hilo funds because the Hawai`i SBDC Network was told on two occasions by the
      University of Hawai`i that this was not allowed, even though the then Comptroller of
      the Research Corporation of the University of Hawai`i had advised us to do so.

      b. Based on the arguments put forth in the Draft Audit Report requiring the
      application of on-and off-campus rates, the amount of indirect costs of $35,508
      calculated by the SBA auditors may be incorrect. They have not applied on- and
      off-campus rates to the UH Hilo funds. The correct amount based on the Draft Audit
      Report arguments should be $34,837. See the revised table below:

                    Unclaimed Allowable 1995 Indirect Costs - Revised

                                                         Computational Final
          Description                                      Amounts     Amount

          State Matching Direct Costs                                 $256,396
          Less: Equipment, Rental & BRL Costs                           88,902
          Net State Matching Direct Costs                             $167,494
                                                         Computational Final
          Description                                      Amounts     Amount

          On-Campus Base - Hilo, Lihue                      130,585
          Off-Campus Base - Other Subcenters                 36,911
          On-Campus - OSA (rate = 21.14%)                                    27,606


                                           33

Hawai`i SBDC Network Response
To Draft Audit Report No. 8-7-F-004


          Off-Campus - OSA (rate = 19.59%)                               7,231
            Total Indirect Costs Allowed                               $34,837

      c. The use of Other Sponsored Activity (OSA) rates, rather than Sponsored
      Instruction and Training rates and of on- and off-campus rates in the above table,
      does not indicate the Hawai`i SBDC Network concurs with the auditors that such
      rates should be applied to SBDC funds.

Recommendations (DAR, p. 12)

   4A. Use correct negotiated indirect cost rates for allocating expenditures. (DAR, p.
   12)

      a. The Hawai`i SBDC Network has initiated discussions with the University of
      Hawai`i Indirect Cost studies group at the Office of Research Services and the
      Central Accounting Office to correct the application of Other Sponsored Activity
      rates rather than Sponsored Instruction and Training rates to SBDC direct costs.

   4B. Prorate in-kind costs rents. (DAR, p. 12)

      a. The Hawai`i SBDC Network will adjust the proration of in-kind rent costs in
      accordance with the direction provided by the auditors.

   4C. Compute allowable indirect costs for matching funds regardless of the amount
   of Federal funds received. (DAR, p. 12)

      a. The Hawai`i SBDC Network will compute allowable indirect costs for matching
      funds.




                                        34

Hawai`i SBDC Network Response
To Draft Audit Report No. 8-7-F-004


                                OTHER AUDIT ISSUES


The Hawai`i SBDC Network has noted that the auditors have issued no findings regarding
other issues reviewed by them:

   1. The appropriateness of the Rural Economic Transition Assistance - Hawai`i (RETA­
   H) Program as a Hawai`i SBDC Network administered program.

   2. The appropriateness of the Business Research Library as a specialty subcenter of the
   Hawai`i SBDC Network.

   3. The location of the Hawai`i SBDC Network State Office (Lead Center) in Hilo.

   4. The appointment of the current State Director of the Hawai`i SBDC Network.

   5. The definition of Program Income as currently in use in the SBDC Program.




                                        35

